<html>
<title> - TRANSPORTATION, HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2019</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]



 
  TRANSPORTATION, HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2019

                              ----------                              


                        WEDNESDAY, MAY 16, 2018

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 3:36 p.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Susan M. Collins (chairman) 
presiding.
    Present: Senators Collins, Daines, Reed, and Murray.

                      DEPARTMENT OF TRANSPORTATION

                      Railroad Safety Initiatives

STATEMENT OF HON. RONALD BATORY, ADMINISTRATOR, FEDERAL 
            RAILROAD ADMINISTRATION


             opening statement of senator susan m. collins


    Senator Collins. The hearing will come to order.
    Good afternoon. Let me begin by apologizing to our 
witnesses. We are in the midst of two roll call votes. I cast 
the first one, the Ranking Member, Senator Jack Reed is voting 
right now. We are going to try to keep switching back and 
forth. Obviously, these votes were not scheduled at the time we 
scheduled this hearing. That is the way the Senate is, but we 
are going to proceed.
    Today, our subcommittee is holding an oversight hearing on 
the Department of Transportation's rail safety programs. I am 
very pleased that I will be joined by Senator Jack Reed, the 
subcommittee's invaluable Ranking Member.
    I also want to welcome our panel of distinguished 
witnesses. We are joined today by Ron Batory, the Administrator 
of the Federal Railroad Administration; Stephen Gardner, the 
Vice President and Chief Commercial Officer of Amtrak; Patricia 
Quinn, the Executive Director of the Northern New England 
Passenger Rail Authority; and Art Leahy, the CEO of Metrolink 
commuter rail in southern California.
    The issue of railroad safety has received heightened 
attention recently due to several disturbing accidents.
    Last December, an Amtrak train derailed in DuPont, 
Washington, killing 3 people and injuring 60, on the inaugural 
run of a new line. The engineer was speeding on a curved track 
nearly 50 miles per hour above the speed limit.
    In January, closer to home, Members of Congress were 
involved in a highway-railroad grade crossing crash. Witnesses 
report that a truck entered the crossing when the gates were 
down. Unfortunately, this type of accident occurs all too 
frequently.
    In February, another Amtrak train collided with a sitting 
freight train in South Carolina because it was diverted onto a 
track that had been taken out of service.
    These three accidents illustrate the variety of challenges 
we face in improving the safety of our railroads.
    The rail industry's safety record has improved in some 
areas, with the number of derailments declining by 35 percent 
since 2008 despite increasing service levels.
    Last year, however, the number of accidents and incidents 
actually increased compared to 2016. Among these incidents were 
several serious collisions that led to fatalities that, in some 
cases, could have been avoided with the use of proven 
technologies such as Positive Train Control, or PTC, as well as 
improvements to the safety culture through better training.
    I am all too aware of one such incident in Lac-Megantic in 
Quebec, Canada in 2013, which resulted in the death of 47 
residents just 30 miles from the Maine border. In 2014, our 
subcommittee held a hearing on the Lac-Megantic accident and 
the transportation of crude oil by rail.
    As a result, this committee increased the number of 
railroad inspectors at FRA, created the Short Line Safety 
Institute to improve the safety culture in the industry, and 
mandated the phase out of old tank cars that were susceptible 
to puncture and leakage upon derailment. Our railroads and our 
communities are safer today because of those new approaches.
    Prior to Lac-Megantic, the horrific accident in Chatsworth, 
California in 2008, which resulted in 25 deaths, led Congress 
to mandate PTC for most Class I and passenger rail service.
    PTC technology, while challenging to implement, has 
demonstrated that it can prevent major crashes and incidents 
caused by human error. PTC likely would have prevented several 
recent accidents, such as the one that I mentioned in 
Washington State.
    It is imperative for railroads to implement this safety 
system as soon as possible. In fact, Congress has mandated that 
all required railroads implement PTC by December 31 of this 
year, with an extension until 2020 for railroads that can 
demonstrate their system is fully functional, but may need 
additional testing.
    While most Class I freight companies, as well as Amtrak, 
are on schedule to meet the PTC deadline of December 31, 2018, 
last month the Federal Railroad Administration released a list 
of 15 railroads that are ``at-risk'' of neither meeting the PTC 
deadline nor satisfying the legal criteria to qualify for an 
extension until December 31, 2020. Many of the railroads on 
this list are commuter or other publicly subsidized railroads.
    Amtrak has also recently highlighted several State 
supported and long distance routes that are at risk of having 
service curtailed due to a failure to install PTC fully.
    For the Downeaster regional train in Maine, it is essential 
that the Massachusetts Bay Transportation Authority, or MBTA, 
fully implement Positive Train Control. The Massachusetts 
Authority serves as the host railroad on a very small part of 
the Downeaster route, and is responsible for the installation 
of PTC on a section of track between Haverhill and Boston.
    Fortunately, MBTA has made progress and is now on pace to 
meet the deadline at the end of the year, which will allow the 
Downeaster to continue to offer uninterrupted service between 
Maine and Boston.
    Recognizing the financial costs associated with PTC 
deployment, our subcommittee has provided funding over the last 
3 years, including up to $593 million in the fiscal year 2018 
funding bill.
    With the PTC deadline just months away, however, it has 
taken until this week for the Department to make funding 
available to potential applicants. When this funding is 
awarded, I anticipate that it will focus on both freight and 
commuter railroads that are most challenged in meeting the 
deadlines.
    It is important to note that while PTC is critical to 
improving rail safety, it cannot prevent all accidents.
    The Amtrak train carrying Members of Congress struck a 
truck that should not have been on the highway-rail grade 
crossing, an occurrence that is, unfortunately, far too common. 
Almost 250 people died in similar highway-rail grade crossing 
collisions last year, and when combined with trespasser 
fatalities, they contributed to 96 percent of all rail-related 
deaths last year.
    In an effort to address these problems, this committee has 
provided funding to the Department of Transportation for a 
media campaign to increase awareness of highway-rail grade 
crossings. We somehow have to get across the message that you 
cannot beat the train by violating the rail crossings.
    Earlier this year, the Department launched these efforts, 
and I look forward to hearing from the Administrator on how 
these funds are being used and what metrics will be applied to 
determine effectiveness.
    Let me now turn to Senator Reed for his opening remarks.
    I apologize for starting before you got here, with the 
permission of your staff, due to the votes that we have ongoing 
on the floor.


                     statement of senator jack reed


    Senator Reed. Thank you, Chairman Collins, not only for 
holding this important hearing, but also for your extraordinary 
leadership, generosity, and kindness.
    We are here today to discuss a very important topic, which 
is rail safety. We are also responding to, as Chairman Collins 
pointed out, several high profile rail accidents over the past 
few months, some of which were Positive Train Control 
preventable, including tragic fatal accidents in both 
Washington and South Carolina.
    Beyond the headlines, the FRA has also been tracking 
concerning statistics regarding highway-railway grade crossings 
and trespassing incidents. In 2017, 868 people died in rail-
related accidents and incidents, with 245 of those occurring at 
highway-railway grade crossings and 590 from trespassing 
incidents. Both of those numbers are higher than in 2016.
    In fact, sadly, a trespassing pedestrian was struck by an 
Amtrak train in Central Falls, Rhode Island just days ago and 
amazingly survived. Others, however, have not been as 
fortunate. This is the second incident in just a year and a 
half in Rhode Island alone. We need to address these 
challenges, while also providing assistance for the 
implementation of Positive Train Control.
    We all recognize that the safety and efficiency of our rail 
systems are clearly linked to investment and oversight. I am 
particularly proud of the rail investments and safety 
improvements we were able to make in the 2018 Omnibus under 
Senator Collins' leadership.
    This subcommittee has increased funding for important 
safety programs, such as the Automatic Track Inspection Program 
and PTC oversight, at the FRA. In 2018, we provided $592 
million for CRISI Grants, with $250 million set aside for PTC 
implementation. It was also particularly important that we made 
commuter rail agencies eligible for that PTC funding since they 
have the greatest need for public assistance.
    Unfortunately, the FRA decided to issue a Notice of Funding 
Opportunity for only the $250 million minimum set aside for PTC 
implementation and to hold back more than $340 million of the 
remaining 2018 CRISI funding, unnecessarily delaying important 
safety and infrastructure projects.
    PTC implementation is an eligible activity for the 
remainder of the CRISI funding as are highway-railway grade 
crossing improvements that would save lives. The decision to 
withhold the majority of the CRISI funding will confuse 
grantees, delay critical infrastructure investments, and waste 
time that could be spent building projects that address the 
other safety challenges that cause the greatest number of 
deaths on our railroads.
    I am disappointed by the decision to separate the funds set 
aside for PTC implementation and strongly encourage the FRA to 
award all of the funding we have provided quickly and 
thoughtfully to address the safety risks that we face as a 
Nation.
    In 2018, we also funded Amtrak at the highest level ever in 
an annual appropriations bill, with a special focus on the 
Northeast Corridor where there is a $38 billion state of good 
repair backlog. We funded the Federal-State Partnerships for 
State of Good Repair program at $250 million, the highest 
single appropriation as over from that program well.
    Both of those programs are critical to upgrading and 
replacing century-old assets on Amtrak's Northeast Corridor, 
which connects a region that contributes 20 percent of 
America's Gross Domestic Product.
    I am concerned that this Administration has incorrectly 
labeled these programs and the critical projects they address 
on the Northeast Corridor as ``local, urban concerns.'' When 
you are dealing with 20 percent of the Gross Domestic Product, 
it is not a local, urban concern.
    These are not local projects. They are projects of national 
significance, and this Administration has done a disservice to 
the safety and economic opportunity of Americans all along the 
East Coast due to their intentional bureaucratic delays. The 
Department of Transportation must do better as these projects 
move closer to construction.
    In summary, Congress has done its part. Now the 
Administration needs to get down to work, expeditiously 
implement those programs and award grants to the railroads and 
agencies that need them.
    I look forward to hearing from all of the witnesses about 
their state of good repair and safety challenges, as well as 
the best practices and opportunities for improvement on 
America's rail network. Rail safety is an area where we have 
broad, bipartisan agreement. As this subcommittee looks to 
2019, your ideas and experience will help to inform our funding 
decisions to make America's rail system safer and more 
efficient.
    We do not want to work together and appropriate significant 
money for real needs across this country and then see that 
money sit there because people will not do their job.
    Thank you.
    Senator Collins. Thank you very much, Senator Reed.
    Administrator Batory, thank you for being here.


                  summary statement hon. ronald batory


    Mr. Batory. Thank you, Chairman Collins, Ranking Member 
Reed, and members of the subcommittee.
    The opportunity to testify today to discuss rail safety is 
an honor. I come to my position as Administrator of the Federal 
Railroad Administration with 45 years of experience in the 
railroad industry rising to become the President and Chief 
Operating Officer of a significant freight rail carrier in the 
United States.
    Throughout my career, I have been focused on continually 
improving safety performance. I bring the same unwavering 
perspective to my current position at the FRA.
    Railroads' implementation of PTC systems is at the top of 
our agenda. As we approach critical deadlines for railroads' 
implementation of PTC systems, FRA remains committed to working 
with the railroads to ensure the implementation of this 
important rail safety technology in a timely manner.
    While railroads are making progress, most will need to 
request an alternative schedule that the governing statute 
allows. Under the direction of Secretary Chao, FRA is taking a 
proactive approach to assist railroads aggressively towards the 
implementation of PTC systems.
    In that regard, FRA senior leadership met individually with 
executives for each of the to-be-compliant 41 railroads earlier 
this year. This was precedent-setting since the enactment of 
the original statute of 2008 along with each of the major 
equipment and technology suppliers representing the small, 
boutique market, which was also precedent-setting.
    During FRA's recent meetings, railroads commonly conveyed 
some ongoing challenges including three: Demand and supply 
issues among a limited number of PTC system vendors; Ongoing 
technical and reliability issues with PTC system hardware and 
software; Last, is a lack of a cohesive progress in the realm 
of interoperability from both a host and a tenant perspective.
    Today, the FRA believes 12 railroads are at-risk of both 
missing the statutory implementation deadline and failing to 
qualify for an alternative schedule. This assessment was based 
on railroad self-reported progress through the first quarter of 
this year. These PTC systems are in operation on over 60 
percent of the required freight railroads' route miles.
    Passenger railroads, though, have made less progress, which 
includes commuter rail as well as intercity rail. To date, less 
than 25 percent of the required route miles are in service.
    Fourteen railroads, though, have reported complete 
installation of all hardware necessary for PTC system 
implementation and another 13 have reported 80 percent of the 
required hardware installed.
    Since 2008, the funding provided by this committee has 
enabled the Department to make available over $2.5 billion in 
grants and loans to assist with PTC implementation. This 
amounts to nearly 20 percent of the $14 billion the 
consolidated industry estimates are for the implementation of 
Positive Train Control.
    I might also add that the majority of the $2.5 billion was 
directed toward commuter rail. In addition, and a more recent 
note, is $318 million awaiting award and application under 
Consolidated Rail Infrastructure and Safety Improvements 
(CRISI).
    Since this Administration took office, railroads have made 
progress with their PTC implementation. From Quarter One of 
2017 through Quarter One of 2018, railroads have increased the 
total amount of installed PTC system hardware from 77 percent 
to 93 percent. This progress has enabled the physical operating 
growth of PTC, which was very, very important.
    At the onset of this Administration, PTC systems were in 
operation on approximately 18 percent of the freight railroad 
route miles required to be governed by a PTC system, and have 
now increased to a percentage in excess of 60 percent as of 
March 31 of this year.
    On the intercity passenger and commuter railroads has been 
a much slower growth rate. This time last year, we were at 24 
percent. This year, we are at only 25.
    This progress is in the freight sector, and the commitment 
shown in intercity passenger and commuter railroad is a 
testament to Secretary Chao's commitment to ensuring our 
Nation's railroads are safe.
    Additionally, it is a testament to the hard work and 
dedication of the men and women serving at FRA. Although first 
charged with the PTC mandate in October of 2008, the progress 
exhibited over the last few years shows that railroads have 
prioritized PTC implementation and adhered to Secretary Chao's 
safety charge of earlier this year concerning PTC.
    Moving forward, FRA will continue to support and facilitate 
railroads' implementation of PTC technology by utilizing the 
tools afforded by Congress and providing extensive technical 
assistance and guidance to railroads and their suppliers.
    We remain vigilant in harnessing and leveraging all 
personnel, financial and other resources, available to help 
expedite railroad implementation efforts.
    We appreciate the subcommittee's support for our critical 
programs and we welcome your continued partnership to advance 
rail safety. With all that said, I sit here very honorable in 
front of you, look forward to listening to your concerns, and 
answering your questions on railroad safety.
    [The statement follows:]
              Prepared Statement of Hon. Ronald L. Batory
    Thank you for the opportunity to testify today to discuss rail 
safety. I come to my position as Administrator of the Federal Railroad 
Administration (FRA) with 45 years of experience in the railroad 
industry, rising to become the President and Chief Operating Officer of 
a significant freight rail carrier in the United States. Throughout my 
career, I have been focused on continually improving safety 
performance, and I bring this same perspective to my current position 
with FRA. The mission of FRA is to enable the safe, reliable, and 
efficient movement of people and goods for a strong America, now and in 
the future. Under the leadership of Secretary Elaine L. Chao, the FRA 
is executing this mission by: enforcing safety regulations; promoting 
non-regulatory safety improvement initiatives; managing Federal 
investments in rail infrastructure and service; facilitating regional 
rail planning; and nurturing research and development efforts to 
advance innovative technologies and best practices. As we approach 
critical deadlines for railroads' implementation of positive train 
control (PTC) systems, FRA remains committed to working with the 
railroads to ensure implementation of this important rail-safety 
technology in a timely manner.
                 positive train control implementation
    Railroads' implementation of PTC systems is at the top of our 
agenda. PTC systems represent the most fundamental change in rail 
safety technology since the introduction of Automatic Train Control in 
the 1920s. PTC is a processor-based and communication-based train 
control system designed to prevent certain train accidents. 
Specifically, a fully implemented PTC system should prevent train-to-
train collisions, over-speed derailments, the movement of trains 
through a switch left in the wrong position, and incursions into 
established work zones. PTC accomplishes this by automatically 
controlling train speeds and movements if an operator fails to take 
appropriate action.
    As mandated by the Rail Safety Improvement Act of 2008 (RSIA), each 
Class I railroad and entity providing regularly scheduled, intercity or 
commuter rail passenger service must implement a PTC system on certain 
main lines over which 5 million or more gross tons of annual traffic 
are transported. Specifically, railroads must implement PTC on main 
lines over which poison or toxic- by-inhalation hazardous materials 
(PIH/TIH) are transported, and main lines over which intercity or 
commuter rail service is regularly provided. Under RSIA, railroads were 
originally required to complete implementation by December 31, 2015. 
Approximately 2 months before that deadline, the House and Senate 
overwhelmingly passed, and the President signed, the Positive Train 
Control Enforcement and Implementation Act of 2015 (PTCEI Act), 
extending the deadline for full PTC system implementation to at least 
December 31, 2018.
    In the PTCEI Act, Congress permits a railroad to request FRA's 
approval of an ``alternative schedule'' with a deadline extending 
beyond December 31, 2018, but no later than December 31, 2020, for PTC 
system implementation. The law requires FRA to approve a railroad's 
alternative schedule with a deadline no later than December 31, 2020, 
if a railroad submits a written request to FRA that demonstrates it has 
met the statutory criteria to qualify for such an alternative schedule. 
Currently, 41 railroads are required by statute to implement PTC 
systems: all 7 Class I freight railroads; 30 commuter and intercity 
passenger railroads, including the National Railroad Passenger 
Corporation (Amtrak); and 4 short line and terminal railroads. The 
technology is being implemented on approximately 60,000 miles of the 
140,000-mile railroad network.
    While railroads are making progress, most will need to request an 
alternative schedule. Under the direction of Secretary Chao, FRA is 
taking a proactive approach to help railroads acquire, install, test, 
and fully implement certified PTC systems as soon as possible. On 
December 27, 2017, 1 year ahead of the deadline, Secretary Chao sent 
letters to all railroads subject to the statutory mandate to implement 
PTC systems, stressing the urgency of safely implementing PTC systems 
and meeting the statutory deadline. At the direction of Secretary Chao, 
FRA senior leadership met individually with executives from each of the 
41 railroads in January and February of this year. Railroads have 
generally been candid in detailing the challenges and obstacles 
confronting their properties. During the meetings, we sought to 
objectively evaluate each railroad's PTC deployment status, and learn 
what remaining steps each railroad needs to take to meet the deadline 
or satisfy the statutory criteria necessary to qualify for an 
alternative schedule.
    During these meetings, the railroads commonly conveyed the 
following ongoing challenges:

  --There is a limited number of PTC system vendors and suppliers, all 
        of which are significantly resource-constrained and serving all 
        41 railroads and their tenant railroads;

  --As reliability and stability of PTC systems is still immature, 
        railroads are experiencing significant technical issues with 
        both PTC system hardware and PTC system software that often 
        take considerable time to diagnose and resolve, impacting 
        current operations;

  --Host railroads noted that many tenant railroads that operate on 
        main lines requiring PTC system implementation have made 
        variable, and often unknown, progress equipping locomotives 
        with operational PTC technology, while some tenant railroads 
        report that their host railroads are not providing opportunity 
        for testing;

  --Railroads have only recently begun testing PTC systems for 
        interoperability;

  --Many commuter railroads stated that negotiating legal agreements 
        with certain vendors and suppliers often took time to complete, 
        given various insurance, liability, and State law issues; and

  --Railroads noted concern about FRA's approval review and approval 
        cycle, given the surge in submissions requiring FRA approval in 
        2018-2019.

    Last month, FRA sent letters to fifteen railroads that we consider 
to be at risk of both missing the statutory implementation deadline, 
and failing to qualify for an alternative schedule. This assessment was 
based on railroads' self-reported progress as of December 31, 2017 
(Quarterly PTC Progress Reports for Quarter 4 of 2017). Based on the 
information provided, these railroads had installed less than 80 
percent of their PTC system hardware as of December 31, 2017.
    Railroads' self-reported Quarterly PTC Progress Reports for Quarter 
1 of 2018 were due to FRA on April 30, 2018. During the week of May 7, 
2018, FRA released a status update with infographics depicting 
railroads' self-reported PTC implementation progress for the first 
quarter of 2018. Based on railroads' self-reported progress during the 
first quarter, FRA is in the process of determining which railroads FRA 
still considers at risk of failing to meet the statutory criteria 
necessary to qualify for an alternative schedule. Based on FRA's 
preliminary review, FRA believes that approximately twelve of the 
fifteen railroads that were at risk as of December 31, 2017, remain at 
risk, as of March 31, 2018 representing a 20 percent improvement.
    By law, it is the railroads' responsibility to implement PTC 
systems, but FRA is facilitating railroad and supplier collaboration to 
hasten, and urge, implementation. We have also met individually with 
PTC system component suppliers to learn more about their capacity to 
meet the high demand of railroads to achieve timely implementation. As 
noted in our most recent status update, as of March 31, 2018, PTC 
systems are in operation on approximately 60 percent of the freight 
railroads' route miles that are required to be governed by a PTC 
system. Passenger railroads have made less progress, with PTC systems 
in operation on 25 percent of required route miles. Fourteen railroads 
report they have completed installation of all hardware necessary for 
PTC system implementation and another thirteen report they have 
installed over 80 percent of the required hardware. In addition, as of 
March 31, 2018, all but two railroads report having acquired sufficient 
radio spectrum for their PTC system needs.
                 grant funding and financial assistance
    The safety improvements PTC technology is designed to provide come 
with significant costs, both in terms of immediate acquisition and 
increased operations and maintenance costs. Industry estimates PTC 
acquisition will exceed $14 billion, and maintenance will cost 10 to 20 
percent of annual capital costs. Since 2008, FRA has awarded 
approximately $735 million in grant funding to support railroads' 
implementation of PTC systems. FRA also supported the Federal Transit 
Administration (FTA) with its evaluation and selection of approximately 
$197 million in grant fund awards to 17 commuter and intercity 
passenger railroads and state and local governments for installation of 
PTC systems, which were announced on May 31, 2017. The sources of the 
approximately $932 million in FRA and FTA grant funding are:

  --$475 million from FRA's High-Speed Intercity Passenger Rail Grant 
        Program;

  --$197 million in Section 3028 of the Fixing America's Surface 
        Transportation Act (FAST Act) funding;

  --$120 million in annual capital grant funding to Amtrak (as of March 
        2018);

  --$86 million from FRA's Railroad Safety Technology Grant Program;

  --$52 million in American Recovery and Reinvestment Act grant funding 
        to Amtrak; and

  --$2 million in Research and Development grants.

    Additionally, in May 2015, FRA issued a $967.1 million loan to 
Metropolitan Transportation Authority for Long Island Rail Road's and 
Metro-North Railroad's implementation of PTC systems. And on December 
8, 2017, the Build America Bureau closed on a $162 million 
Transportation and Infrastructure Finance and Innovation Act loan and a 
$220 million Railroad Rehabilitation and Improvement Financing loan to 
be issued to the Massachusetts Bay Transportation Authority for PTC 
system implementation.
    Furthermore, the FAST Act authorized three new competitive rail 
development grant programs- two capital grant programs and one 
operating grant program; the Consolidated Rail Infrastructure and 
Safety Improvements (CRISI), Federal-State Partnership for the State of 
Good Repair, and Restoration and Enhancement. For fiscal years 2017 and 
2018, Congress appropriated an additional $961 million in funding with 
an emphasis on assisting PTC implementation.

  --$661 million for CRISI for capital projects, regional and corridor 
        planning, environmental analyses, research, workforce 
        development, and training to improve the safety, efficiency, 
        and reliability of passenger and freight rail systems; of 
        which, $250 million is set aside for PTC implementation;

  --$275 million for Federal-State Partnership for State of Good Repair 
        for capital projects on public- or Amtrak-owned infrastructure, 
        equipment, and facilities to replace existing assets in-kind or 
        with assets that increase capacity or service, maintain service 
        while existing assets are brought into a state of good repair, 
        or bring existing assets into a state of good repair; and

  --$25 million for Restoration and Enhancement Grants for operating 
        assistance for up to 3 years per route to initiate, restore, or 
        enhance intercity passenger rail transportation.

    In the Consolidated Appropriations Act, 2018, Congress specifically 
made commuter railroads eligible applicants for the $250 million set-
aside in the CRISI program for PTC system implementation. As such, 
commuter railroads will be able to join short line railroads and public 
agencies seeking CRISI financial assistance to implement PTC systems. 
FRA is working expeditiously to make this important funding for the 
grant programs available to prospective grantees, with a primary focus 
on helping railroads implement PTC systems. In sum, thanks to the 
funding provided by this committee, the Department has made available 
over $2.5 billion in grants and loans since 2008. This amounts to 
nearly 20 percent of industry estimates for PTC implementation costs.
             enforcement of the ptc implementation mandate
    As we move closer to the end of 2018, there are important questions 
about FRA's enforcement policy. FRA is authorized to assess monetary 
civil penalties against any railroad that fails to implement a PTC 
system by the applicable statutory deadline (either December 31, 2018, 
or, if a railroad has an approved alternative schedule, the applicable 
date not later than December 31, 2020). FRA is developing an 
enforcement strategy consistent with governing statutes to address any 
instances of railroad non-compliance with the statutory deadlines.
    FRA's civil penalty schedule recommends, as guidance, a $16,000 
civil penalty for a failure to timely complete PTC implementation on a 
track segment where it is required. For any violation of a Federal rail 
safety statute, regulation, or order, however, the statutory minimum 
civil penalty FRA may assess is $853, and the ordinary statutory 
maximum is $27,904. FRA may assess a civil penalty for each day the 
non-compliance continues, but FRA may elect to take enforcement action 
on a one-time basis or each month, quarter, year, or other interval of 
time during which the non- compliance continues. FRA is currently 
considering all options, within the framework established by law, to 
determine what type of enforcement action will be most effective and 
appropriate under the circumstances. Our goal must be to ensure any 
enforcement action compels a railroad to fully implement its PTC system 
as efficiently and safely as possible.
       highway-rail grade crossing safety and trespass prevention
    The other frequently persistent safety challenge for FRA is 
collisions, injuries and fatalities at highway-rail grade crossings, 
and the prevalence of trespassing on railroad rights-of-way. Nearly 96 
percent of all rail-related fatalities are attributable to these two 
types of events. While significant progress has been made, in 2017, 
there were over 2,100 collisions between highway users and trains, 
resulting in 273 deaths and 813 injuries. Another 560 persons were 
killed as a result of being hit by trains while trespassing on railroad 
property.
    To further address this issue, in addition to traditional brand 
awareness campaigns such as Operation Life Saver (OLI), the National 
Highway Traffic Safety Administration and FRA have partnered together 
to enact a national public education campaign (Stop. Trains Can't.), 
targeted towards rail grade crossing safety. This high-visibility 
campaign is now in its third year, and underscores the importance of 
obeying railroad crossing signs and warning devices, as well as 
crossing train tracks only at designated locations.
                               conclusion
    Since this Administration took office, railroads have made progress 
with their PTC implementation. From Quarter 1 of 2017 to Quarter 1 of 
2018, railroads increased the total amount of installed PTC system 
hardware from 77 percent to 93 percent. Notably, intercity passenger 
and commuter railroads increased their total PTC system hardware by 20 
percent from Quarter 1 of 2017 to Quarter 1 of 2018, with freight 
railroads increasing hardware installation by 16 percent during that 
same period. Hardware installation is an initial, yet critical, phase 
of implementing a PTC system.
    Additionally, from Quarter 1 of 2017 to Quarter 1 of 2018, 
railroads acquired 23 percent of the spectrum necessary for PTC system 
implementation, increasing to 93 percent acquired. At the onset of this 
Administration, PTC systems were in operation on approximately 18 
percent of the freight railroads' route miles required to be governed 
by a PTC system, and this increased to 60 percent as of March 31, 2018. 
Intercity passenger and commuter railroads also increased, albeit at a 
much slower rate with PTC systems in operation on approximately 24 
percent of the required route miles as of March 31, 2017, and 
increasing to 25 percent of the required route miles as of March 31, 
2018.
    This progress is a testament to Secretary Chao's commitment to 
ensuring our nation's railroads are safe. Additionally, it is a 
testament to the hard work and dedication of the men and women serving 
at FRA. Although first charged with the PTC mandate in October of 2008, 
the progress exhibited over the last few years shows that many 
railroads have prioritized PTC implementation and adhered to Secretary 
Chao's safety admonition.
    Moving forward, FRA will continue to support and facilitate 
railroads' implementation of PTC technology by utilizing the tools 
afforded by Congress and providing extensive technical assistance and 
guidance to railroads and suppliers. We remain vigilant in harnessing 
and leveraging all the personnel, financial, and other resources 
available to help expedite railroads' implementation efforts. FRA holds 
an unwavering commitment to the safe and effective operation of 
railroads across the country. We appreciate the Subcommittee's support 
for our critical programs, and we welcome your continued partnership to 
advance rail safety and service. I look forward to your questions.

    Senator Reed. [presiding]: Thank you, Mr. Administrator.
    Senator Collins has gone to the floor for the vote and when 
she returns, I will go to the floor for my vote.
    Mr. Gardner, your testimony, please.
STATEMENT OF STEPHAN GARDNER, EXECUTIVE VICE PRESIDENT 
            AND CHIEF COMMERCIAL OFFICER, AMTRAK
    Mr. Gardner. Thank you, Ranking Member Reed and my fellow 
witnesses.
    Appreciate the opportunity to be here this afternoon and 
for the subcommittee setting aside time to focus on railroad 
safety.
    My name is Stephan Gardner. I am Amtrak's Executive Vice 
President and Chief Commercial Officer. It is my pleasure to be 
here on behalf of the 20,000 dedicated Amtrak employees across 
our network.
    As the subcommittee knows, this has been a challenging 
fiscal year for Amtrak as we faced a series of tragic 
accidents, including the two accidents you mentioned in your 
opening statement.
    These incidents have weighed heavily on all of us at Amtrak 
and have raised concerns, both internally and externally, about 
safety at the company and passenger railroading generally. I am 
here to share with you that we are tackling these concerns 
directly.
    While Amtrak had already begun to implement a number of 
strategies to improve safety prior to these incidents, we have 
significantly expanded these efforts and are strengthening our 
polices, training, and operations to ensure they reflect the 
highest degree of safety.
    Leading this effort is our new Chief Safety Officer, Ken 
Hylander, who is devoting himself to learning from the recent 
incidents and putting in place new safeguards for our customers 
and employees. Foremost amongst his duties is to lead the 
implementation and operation of the Safety Management System. 
Used by industries like aviation, healthcare, and energy, an 
SMS is a proactive risk management methodology that focuses 
systematically and cooperatively on identifying risks and 
instituting mitigations.
    Adoption of this system follows the NTSB's recommendations 
that Amtrak, and our unions, implement an SMS program, and is 
consistent with the approach mandated by Congress in 2008, and 
soon required by FRA.
    We have already started implementation having completed a 
new safety system policy, instituted our Signal Suspension 
Assessment initiative and root cause corrective action 
methodology, and we are making good progress toward our overall 
goal of submitting our required System Safety Program to FRA 
for review this fall.
    A key aspect of SMS is the role of technology to mitigate 
risk and our highest priority on this front is to promptly 
achieve PTC implementation across our network.
    As we said before, and in light of the recent incidents, we 
believe PTC, or PTC equivalent levels of safety, must be 
standard for all Amtrak routes and that this system will make 
the entire network safer for passengers, employees, and 
communities.
    Amtrak is on track to achieve installation and operation of 
PTC across the territory we control by the deadline, and we are 
working with our partners throughout the industry to advance 
this system on their infrastructure.
    At present, we believe most of our major partners will have 
PTC implemented and operational on the routes that we use by 
the 2018 deadline.
    For the instances where this is not the case, we expect 
nearly all carriers will qualify for an alternative PTC 
implementation scheduled under law, while a very few others may 
not make enough progress to qualify for this extension by 
year's end.
    For those carriers and routes operating under an extension, 
or under an FRA-approved exemption, Amtrak is now performing 
risk analyses and developing strategies for enhancing safety on 
a route by route basis to ensure that come January 1, we can 
provide a single level of safety across our network.
    For example, our safety team has built a risk assessment 
process for exempted routes, such as the Downeaster, the Ethan 
Allen, and the Vermonter. Our clear goal is to preserve service 
on these routes by using alternative methods to mitigate known 
risks, thereby allowing us to ensure that our customers, and 
your constituents, are as safe on those routes as they would be 
anywhere else on our system.
    For those very limited routes where our host may not 
achieve an alternative schedule or an exemption by year's end, 
Amtrak will have to suspend service until such routes come into 
compliance.
    Finally, we remain busy working with all of our tenant 
railroads that operate over Amtrak's infrastructure as they 
work to ensure they have sufficiently PTC-commissioned rolling 
stock available by the deadline to operate normal services.
    Before closing, I want to thank the members of this 
subcommittee and their staff for their tremendous efforts in 
crafting and passing the fiscal year 2018 appropriations bill. 
Your subcommittee has championed historic investments in 
passenger rail that will serve as a foundation for a new era of 
modernization and improvement.
    Like you, we see the value in industry passenger rail and 
we hope that as you continue to work on the fiscal year 2019 
appropriations bill, that the fiscal year enacted levels for 
both Amtrak and the Federal Railroad Administration's grant 
programs will serve as the new baseline for passenger rail 
funding.
    Thank you, again, for the opportunity to appear today. We 
are deeply committed to strengthening the safety of our 
network, improving the services we offer our customers, and 
effectively stewarding the funds you provide us.
    We sincerely appreciate the support we have received from 
the subcommittee and from you, Ranking Member Reed, and I look 
forward to answering any questions you have.
    [The statement follows:]
                Prepared Statement of Stephen J. Gardner
                       railroad safety at amtrak
    Good afternoon. I wish to extend my thanks to Chairman Collins, 
Ranking Member Reed, and the whole subcommittee for setting aside time 
today to focus on railroad safety. My name is Stephen Gardner and I 
serve as Executive Vice President and Chief Commercial Officer for 
Amtrak and it is my pleasure to testify here today on behalf of our 
20,000 dedicated employees.
    While fiscal year 2018 began with a strong start operationally, the 
fiscal year has turned into a particularly challenging year as the 
company has faced a number of tragic accidents that impacted our 
customers and our employees. The December derailment of Train 501 near 
DuPont, Washington, the February collision between Train 91 and a CSX 
freight train in Cayce, South Carolina, several high-profile grade 
crossing and trespasser incidents and the recent death of an Amtrak 
employee in Bowie, Maryland weigh heavily on all of us at Amtrak, 
prompting us to review and strengthen our policies, training, and 
operations to ensure they reflect the highest degree of safety 
possible.
    After the December 2017 Train 501 accident in Washington state, 
Amtrak decided to hire a new Chief Safety Officer who would devote all 
his attention to learning from the incidents in recent years and put in 
place new safeguards for our customers and employees. For this 
position, the company selected Ken Hylander, who joined the railroad in 
January 2018, reporting directly to CEO Richard Anderson. Ken most 
recently served as Chairman of the Flight Safety Foundation, previously 
served as the Chief Safety Officer at Delta Air Lines, and brings more 
than three decades of experience in the aviation industry. He retired 
as a senior vice president from Delta Air Lines in 2014, where he 
successfully managed the occupational, operating safety, security, 
quality, and environmental compliance programs. Foremost among his 
duties is to lead the Amtrak Safety Team and whole company in its 
implementation and operation of a Safety Management Systems (SMS), 
which I am pleased to report is underway.
                        sms implementation plans
Safety Management System (SMS)

    Amtrak is implementing a SMS to improve our approach to safety by 
primarily strengthening hazard identification and complimentary 
mitigation programs. An SMS is a proactive risk management system, 
which will move us toward a more predictive safety management method at 
an organizational level. Having a safety mindset that continually 
identifies and mitigates future risk is the demonstrated way to improve 
overall safety performance. It has been a cornerstone of improving 
safety in many industries, including aviation, healthcare, and energy--
and it is the right system for Amtrak.
    As a company, an effective SMS will help us gather better safety 
data for decisionmaking; systematically analyze safety risks before we 
do something, not after; and have closed-loop processes that identify 
hazards, mitigate them, and verify efficacy. Additionally, our safety 
processes will be fully integrated into our organizational 
decisionmaking and supported by strong oversight to ensure compliance 
with the practices we want to implement. At a personal level each 
Amtrak employee will know his or her role in the safety process.
    We know that the implementation of an SMS is a significant 
undertaking--it requires our organizational commitment. SMS demands 
that all safety related procedures must be carefully documented, 
universally understood, and unfailingly applied. SMS is designed to 
advance that outcome by formalizing our knowledge into processes, 
procedures, and governing documentation in order to improve 
consistency. These efforts are in line with the NTSB's recommendation 
that Amtrak, and our unions, implement a SMS program and are generally 
consistent with the Risk Reduction Program approach mandated by 
Congress in the 2008 Rail Safety Improvement Act and required by FRA 
through the development of a System Safety Program. Amtrak believes the 
implementation of SMS will truly take our safety performance to the 
highest level of service and we are already starting to see some of the 
benefits of this type of system at our railroad.

SMS Implementation Governance

    The Amtrak Safety Team has identified priority areas and gained 
support for their plans to address these issues from the Board of 
Directors and Amtrak leadership. These demonstrations of high-level 
support reinforce the message across the company that safety concerns 
will underpin all we do, and guide every decision we make.
    As part of this effort, Amtrak's Executive Safety Council serves as 
a sounding board for SMS implementation across the company. Made up of 
representatives from across the railroad, this Council is identifying 
opportunities for collaboration and removing barriers to ensure 
coordinated execution of our safety efforts, while providing a crucial 
forum for communications across the organization. Similarly, a more 
front-line group of Safety, Compliance, and Training personnel are 
meeting bi-weekly to manage the implementation of SMS priorities. This 
multi-tiered approach involves people from many different 
organizations, soliciting ideas from all of them while making clear the 
central importance of our safety efforts.
    Concurrent with these efforts and under the terms of our High Speed 
Rail agreement with the Federal Railroad Administration, Amtrak is 
required to submit a full System Safety Plan (SSP) by November 1, 2018. 
This plan will cover areas such as risk assessment, configuration 
management, and change control, and will form the blueprint for new 
operational practices we will adopt as part of the introduction of our 
second-generation Acela Express service. This SSP is being prepared 
within the framework of our new SMS methodologies and is a valuable 
opportunity for multiple disciplines across the company to work 
together and focus their attention onto matters of safety.
                      safety policy and promotion
Amtrak Board Resolution, New Corporate Safety Policy and Annual Safety 
Letter

    Communication is key to the success of any significant program to 
change behaviors across an organization. In March 2018, Amtrak's Board 
of Directors passed a resolution which endorsed and required our 
industry-leading implementation of SMS, our Positive Train Control 
(PTC) compliance efforts, and the associated SMS risk assessments of 
territories not likely to have PTC by the December 2018 deadline. This 
resolution was an important step to move forward with these safety 
initiatives and demonstrates a commitment to safety at the very top of 
the Amtrak structure to all of our employees and stakeholders.
    Following the Board Resolution, Amtrak Executive Leadership Team 
approved a new safety policy and released it to employees early April 
2018.
    The key points of the new safety policy are:

  --Our goal is to become America's safest passenger railroad. We 
        believe that zero accidents and zero serious injuries is 
        possible--and we will work together towards everyone performing 
        at this level.

  --All business functions are expected to make safety an integral 
        element to how they operate. This commitment is central to SMS. 
        Everything we do must consider and advance our safety 
        performance.

  --We will operate at the highest level of safety--by exceeding 
        regulatory standards. It is not good enough for us simply to 
        meet Federal Railroad Association (FRA) guidelines. We must do 
        better.

  --We will proactively identify and mitigate risk based on data. We 
        are identifying new metrics that will allow us to focus on 
        leading indicators--instead of relying on historical incident 
        data.

  --We will become a stronger ``learning'' organization where safety 
        self-reporting is encouraged. We will not discipline employees 
        for self-reporting a safety issue. We need to know where we are 
        falling short in safety so we can study these incidents and 
        learn from them.

  --All employees are empowered to stop an operation if an unsafe 
        condition exists. This means everyone--at any time.

  --We must not tolerate an intentional disregard for safety or 
        reckless behavior. These incidents will be handled 
        appropriately.

  --Amtrak's Executive Leadership team also released its first annual 
        Safety Letter as part of this policy. Going forward, we plan to 
        refresh the policy with an annual letter to make sure the 
        material and priorities are relevant and clearly understood 
        across the company. While these communication steps are 
        essential, they don't change safety on their own. Actions and 
        behaviors determine safety culture and outcomes and we are 
        moving forward with concrete steps to implement SMS.
                            risk management
Safety Metrics

    To obtain better insights into our operations and uncover potential 
safety issues as early as possible, Amtrak's Safety Team is working to 
develop a new set of metrics, which will connect with our Operating 
Plan objectives. These metrics are part of a larger, more fundamental 
effort to move away from a ``violation/discipline'' mindset to 
something closer to what was in use at Northwest Airlines and Delta Air 
Lines, where both Mr. Anderson and Mr. Hylander drove world-class 
safety results. Our new metrics will foster a multi-variable ``Safety 
Index'' concept, which will measure customer and employee safety, along 
with operating anomalies and other key indicators of safety 
performance. Understanding data and managing outcomes driven and 
prioritized by that data are key principles of a SMS. These changes 
will cascade down through Amtrak starting at the executive level and 
reaching the field to provide clear and consistent expectations for our 
employees.
    We are also implementing risk-based hazard management systems, 
starting with our Transportation employees. Building on lessons learned 
from the incidents of the past few years, we aim to provide risk 
assessment toolkits to our employees. We will make sure adequate 
training is provided so our crews can get the most out of these 
resources. On a related note, we are working to enhance our Voluntary 
Safety Program--the Confidential Close Call Reporting System (C3RS). 
Working together with our employees, we can make these existing 
programs more impactful on day-to-day performance at Amtrak.
                            risk assessment
Signal Suspension Risk Assessments

    Following the tragic February Train 91 accident, we have launched a 
Signal Suspension Risk Assessment initiative. Driven by our 
determination to safeguard our customers and employees, and not simply 
adopt the standard operating practices of our host railroads, we now 
have a new review process instituted for known and planned signal 
suspension events. Featuring more centralized decisionmaking than past 
practice, the deliberations under the new policy naturally rely on 
input from our Transportation and Safety groups. This formalized risk 
assessment process helps decide what mitigation strategy or strategies 
need to be adopted to safely operate through these areas. Possible 
responses to signal suspensions include rerouting a train, operating at 
reduced or restricted speeds, coming to a stop before operating over 
switches, and even the possibility of canceling an operation entirely. 
Since this approach was instituted in late March 2018, it has been 
successfully used dozens of times.

Enhanced Route Qualification

    To address opportunities to strengthen our qualifications practices 
coming out of Train 501, changes to our routes and services are now 
evaluated for impacts to safety under a
    consistent and centrally managed process. This formalized process 
sets forth minimum acceptable engineer and conductor route 
qualification and training required as it relates to the number and 
timing of trips and the physical characteristics requirements. The new 
approach also stipulates post-qualification ``check ride'' 
requirements, as well as both physical observations and event recorder 
reviews to ensure operating rules compliance.

Inward-Facing Cameras

    Following the May 2015 Train 188 accident, Amtrak announced its 
plans to add inward-facing cameras to the cabs of our locomotives and 
we have made significant progress with that effort. We now routinely 
review such footage as part of our safety data collection in the places 
where it is available. We are moving forward with installations on our 
current Acela trainsets, which will be completed by the end of fiscal 
year 2018. On the National Network diesel fleet, the outward-facing 
camera technology currently installed is approaching obsolescence, so 
we are working with vendors to develop an integrated solution which 
meets crash-hardened criteria and can process larger file sizes. We 
also continue to explore better options, as the field is advancing 
rapidly.

Changes to Charter and Private Car Operation Policies

    Last month, Amtrak announced changes to our charter train and 
private car operations policy. With these new policies, we will avoid 
the operational risks of operations over ``one-off'' routes that we 
don't normally serve and minimize the distractions that charter and 
private car operations cause, enabling our personnel to focus on our 
core railroad operations. In addition, our new policy on private cars 
will help ensure that our customers and your constituents are not 
delayed in order to couple a private car to an Amtrak train. 
Ultimately, we think this is in the best interest of all our customers 
and your constituents who expect, rightfully so, to have the best 
service our operations can provide and arrive at their destination on 
time.
                            safety assurance
    One of the important components to SMS is safety assurance, which 
requires continual data analysis, testing, monitoring and investigation 
of your safety system to show that it is functioning properly. These 
measurements are important for identifying a root cause or trend and 
ultimately plot a course of action moving forward. To that end, Amtrak 
is developing a formalized process for incident and accident 
investigations. We are also implementing an assessment tool through an 
Internal Evaluation Program (IEP) for critical self-assessment of 
safety processes.

Enhancing Operations and Data Collection and Analysis

    We are making improvements in our internal practices and rules 
compliance testing, known as ``efficiency testing'', with better data 
management and analysis software, using the test result data to drive 
operating improvements through our training programs. We are also 
focused
    on our testing process to ensure the credibility of the data points 
and collection. We have also invested in our data management tools to 
enhance our analysis capabilities, including our use of event recorder 
downloads and analysis, moving from on-demand downloads to routine 
downloads--all trains, every trip, every day.
                         positive train control
    One of the most critical tools that the rail industry needs to 
improve safety is the prompt implementation of Positive Train Control 
(PTC) technology. As Richard Anderson recently testified, PTC must be 
standard for all Amtrak routes and this technology will make the entire 
U.S. rail network safer for passengers, railroad employees, and 
communities.
    Amtrak is a leader in the installation of PTC, having already 
deployed systems across many of the tracks we control. As we stated in 
a letter to Secretary Chao, we are set to complete the required 
installation of PTC on the remaining elements of the infrastructure we 
control and on all our equipment by the December 31, 2018 deadline.
    For the tracks we use but do not own or control, we are cooperating 
with our freight and commuter host railroads as they advance their 
obligations to complete PTC installations, which are required either 
because of the presence of passenger trains or certain hazardous 
material. Additionally, the various freight and commuter railroads that 
operate over Amtrak's infrastructure must equip their rolling stock 
with PTC for use on our infrastructure and we are working cooperatively 
with them to advance these tasks.
    As the Subcommittee knows, railway operations in the United States 
require multiple companies and agencies to cooperate closely to ensure 
the safe, reliable, timely operation of various types of trains across 
differing networks. Integrating PTC into this complex environment is a 
significant undertaking for the industry and its suppliers. While 
Amtrak is eager to bring this technology online, it has been a 
difficult process and required the dedication of significant resources, 
both in terms of funding and personnel.
    PTC relies on three interdependent elements, all of which must be 
in place for the system to function. The first includes equipment that 
must be installed on the locomotives by owners and operators. Second, 
trackside equipment must be installed by host railroads along the 
protected routes that monitor signals, switches, and track circuits. 
Third, there are computer systems, or back office servers (BOS), which 
link the locomotives and the trackside equipment while integrating more 
information about the network. Additionally, each host railroad and 
rail operator must have a BOS and ensure it is correctly integrated 
before the system can be operational. All of this must be done in the 
proper sequence, and for the carriers required to use the system, it 
must be achieved in accordance with the timetables set by law.

Locomotive Installation

    The first part of a PTC system is the equipment installed on 
locomotives and cab cars, which monitors a train's position and speed 
and activates braking as necessary to ensure compliance with speed 
restriction and territorial limits. The complexity of our operations 
requires Amtrak to use three different PTC systems across our network. 
Since 2000, Amtrak's Northeast Corridor operations permitted to exceed 
125 mph have depended on our first form of PTC called Advanced Civil 
Speed Enforcement System, or ACSES. By the end of 2015, Amtrak enabled 
ACSES for all our locomotives, cab cars and trainsets operating on the 
NEC. For equipment that operates on a 98-mile stretch of track Amtrak 
owns in Michigan and to permit higher speed operation on the newly 
purchased and upgraded line owned by the State, we have installed a 
second form of PTC equipment, called ITCS.
    To operate across the other host railroads that make up 72 percent 
of the miles our trains travel, we are also installing a third form of 
PTC in our locomotives to integrate with another system called I-ETMS 
in use by freight railroads. Apart from our locomotives and rolling 
stock, several of our state partners also own their own equipment which 
we operate and maintain. Amtrak is working with these owners and 
various suppliers to help achieve compliance prior to year's end.

Trackside Equipment

    The second part of a PTC system is the trackside equipment, which 
monitors railroad track signals, switches, and track circuits. By law, 
each railroad owner is responsible for installation of PTC equipment on 
the tracks within their rights-of-way. Additionally, the hosts are 
responsible for reporting their PTC trackside readiness schedule to the 
FRA. Amtrak is working with the host railroads to develop an 
implementation schedule for PTC integration and testing. While 9 out of 
19 host railroads that will be using I-ETMS have not provided a notice 
of intent to start PTC testing, the six Class I railroads that own the 
majority of the track over which Amtrak operates (BNSF, CSX, NS, UP, CN 
and CP) have all provided letters of intent.
    Regarding the trackside installations for which Amtrak is 
responsible, Amtrak completed the ACSES PTC implementation on all but a 
few miles near terminals and stations on the NEC in December 2015 and 
on the Harrisburg Line during the first quarter of calendar year 2016. 
On our Michigan Line, trackside PTC implementation on our segment was 
fully completed in 2011 and the State-owned portion of our route to 
Detroit will be completed by the end of December 2018. Installation of 
the ACSES PTC system on Amtrak's Springfield Line will also be 
completed by late the end of December 2018 and we will soon begin 
hardware installation on the portions of the Hudson Line in New York 
which we control, with implementation expected by December 31, 2018.

Back Office Servers (BOS)

    The third part of a PTC system is the back office server, which 
stores all information related to the rail network and trains, and 
transmits authorization for individual train movements. Each host 
railroad and each rail operator will have a BOS that enables the 
necessary information exchanges. For a BOS to be operational, the 
tenant who operates over a host railroad must establish a dedicated 
two-way communication link between their BOS and the host BOS, a 
process known in the field as federation. Amtrak's ACSES system does 
not require a BOS, so Amtrak only needs a BOS for its ITCS system in 
Michigan and its I-ETMS operations over freight hosts.
    Amtrak's BOS will pass crew and train information to the host 
railroad system, as well as to the locomotives themselves. Amtrak's BOS 
is currently operable. The next step in the process is federating the 
Amtrak BOS with the 18 host railroads using I-ETMS, and current 
estimates suggest this will occur with twelve of them before the 
deadline. There are six hosts where Amtrak does not currently expect to 
have federation complete by the end of the year.

Potential Operational Scenarios under PTC

    As a whole, the rail industry is moving forward, so as we look 
forward to the various scenarios we expect to encounter starting on 
January 1, 2019, it is important to note that some of our partners will 
have PTC implemented and operational in time for the December 2018 
deadline. Where this is the case, Amtrak will continue to operate 
passenger rail service with the certainty that PTC is operational on 
that route.
    However, a phased implementation brings us to a number of 
challenging policy questions facing Amtrak, FRA, Congress and the 
various railroads we interact with across our network. It is now clear 
that we are likely to encounter four different scenarios where PTC is 
not yet operational by the end of the year.
    First, there will be carriers that made sufficient progress to 
apply to FRA for an alternative PTC implementation schedule under the 
law. In these instances, Amtrak's equipment will be ready for PTC 
operation, but additional work, testing or approvals are still required 
by the host railroad before the system is considered functional. At 
this time, we believe there is only a small percentage of segments 
outside the NEC that will face this situation.
    Second, there may be carriers over which we operate who appear 
unlikely to achieve sufficient progress to apply for an alternative PTC 
implementation schedule by year's end. For any such route segments, 
Amtrak will suspend operations until such time as the carrier becomes 
compliant with the law.
    Third, there are areas over which we operate for which there is an 
FRA ``Mainline Track Exclusion Addendum'' (MTEA) in place exempting 
that segment from the PTC requirements based on the low levels of 
freight and passenger train traffic or the presence of low-speed 
operations, such as in yards and terminals. We are currently conducting 
risk assessments on these routes and determining the appropriate risk 
mitigation efforts needed for continued operations.
    Lastly, there may be railroads that operate over Amtrak tracks in 
the NEC which may not have sufficient PTC-commissioned rolling stock by 
the December 31, 2018 deadline to operate normal services. Under the 
present rules, Amtrak cannot permit non-compliant equipment to be used 
over our railroad after the deadline and we are working closely with 
our partners and the FRA to determine the best way to address these 
situations.
    I want to re-emphasize that Amtrak has not made any decisions to 
cease train operations across our network or on any specific routes at 
this time. Instead, we are thoroughly analyzing each route on a case-
by-case basis and considering the appropriate strategies for enhancing 
safety on such routes, where possible, for operations after the 
December 2018 deadline. In particular, as we assess these routes, we 
know that some of them are shared with our commuter partners who face 
their own challenges to reach the deadline.
                fiscal year 2018 and 2019 appropriations
    Before closing, I especially want to thank the members of this 
subcommittee and their staff for all the hard work and late nights that 
were dedicated to crafting, and eventually passing, the fiscal year 
2018 appropriations bill. We at Amtrak know it was not an easy task, 
and on behalf of our CEO and Board of Directors, I wish to offer our 
sincere appreciation.
    The fiscal year 2018 bill provided $1.94 billion for Amtrak, an 
increase of more than $400 million above last year's levels. This much 
needed additional funding will support long-standing critical 
infrastructure projects on the Northeast Corridor (NEC) and allow 
Amtrak to continue to improve our assets and operations across our 
National Network. This strong support allows us to move past simply 
maintaining the status quo and begin to address the twin challenges of 
old and unreliable assets and growing passenger demand. We look forward 
to working with the subcommittee as we progress the programming of 
these funds and you consider funding levels for fiscal year 2019.
    Equally important, the bill also included funding for several 
Federal Railroad Administration (FRA)-administered discretionary grant 
programs that will supplement Amtrak's annual grant funding and will 
further advance intercity passenger rail. For example, the Federal 
State Partnership for State of Good Repair grant program now has $250 
million to help repair or replace some of the nation's most critical 
assets, like the tunnels and bridges that many of your constituents use 
every day to travel to work and support the national economy. The 
Consolidated Rail Infrastructure and Safety Improvements Program 
(CRISI) received $592 million to improve the safety, efficiency, and 
reliability of rail, including funding for PTC. Additionally, the FTA 
Capital Investment Grant program, and in particular the funds set aside 
for Core Capacity, has the potential to advance key infrastructure 
projects that we share with our commuter partners. These grants are 
just a few of the programs funded in the fiscal year 2018 bill that 
will support passenger rail, and we fully intend to work with our 
various, state, commuter, and host railroad partners to pursue all 
appropriate grant opportunities once the official funding notices are 
made available by DOT.
    Taken together, your subcommittee and this Congress have made 
historic investments in passenger rail that we believe will serve as 
the foundation for a new era of modernization and improvement. Like 
you, we see the value rail service brings to transportation, 
communities and our economy. We are confident in the increasing 
relevance of intercity passenger rail in 21st Century America, as 
population growth, greater urbanization, increasing air and highway 
congestion and a generational shift away from driving all propel 
consumers to our mode. From growing ridership and revenue to the 
significant reductions we have made in our operating losses, our 
progress is clear.
    It is encouraging that Congress reached a two-year deal to raise 
the budget caps for fiscal year 2018 as well as for fiscal year 2019 
which permits an increase in vital infrastructure funding. As you now 
begin your work on fiscal year 2019 appropriations, we hope that the 
fiscal year 2018 enacted levels will serve as the new baseline for 
funding levels for passenger rail. We have good momentum underway on 
improving safety and rebuilding the railroad for the future and by 
continuing robust levels of investment in fiscal year 2019, we can 
finally make sustained progress towards the major infrastructure 
projects and fleet needs so critical to this nation and to your 
constituents.
    Thank you for the opportunity to appear before you today, and I 
welcome your questions.

    Senator Reed. Thank you very much, Mr. Gardner, for your 
testimony.
    Ms. Quinn, please. Thank you.
STATEMENT OF PATRICIA QUINN, EXECUTIVE DIRECTOR, 
            NORTHERN NEW ENGLAND PASSENGER RAIL 
            AUTHORITY
    Ms. Quinn. Good afternoon. Thank you, Ranking Member Reed 
and members of the committee, including Senator Collins, for 
inviting me here today and for addressing this extremely 
important topic of rail safety.
    I also would like to join my panel members here in thanking 
you for passing the fiscal year 2018 appropriations bill, which 
you demonstrated the strong support for a safe, efficient, and 
quality passenger rail network.
    My name is Patricia Quinn. I am the Executive Director of 
the Northern New England Passenger Rail Authority.
    We are a quasi-government agency based in Maine that was 
formed in the late 1990's for the purpose of restoring 
passenger rail to Maine after about a 30 year hiatus. Those 
efforts were successful and since 2001, we work in partnership 
with Amtrak and our host railroads to manage the Amtrak 
Downeaster service, which has been referenced here a couple 
times today.
    Just as a little background, the Downeaster makes five 
roundtrips a day between Portland and Boston. Three of those 
extend to Freeport and Brunswick. We operate over a 143 mile 
route corridor that is controlled by three host railroads, runs 
through three different States, and serves communities.
    We transport about 500,000 people a year, which I am pretty 
proud of, given the fact that our State has 1.2 million people. 
And since we have started operating, we have transported 7 
million people, the equivalent of 600 million passenger miles 
and stimulated a lot of economic development along our route. 
So it is very important to us.
    In addition to being the Director of Northern New England 
Passenger Rail Authority (NEPRA), I also serve on a couple of 
committees and organizations that I would like to highlight 
today and are relevant to this conversation, the States for 
Passenger Rail Coalition, which is a membership organization, 
and the State-Amtrak Intercity Passenger Rail Committee, which 
was sanctioned by the FAST Act. SAIPRC (State-Amtrak Intercity 
Passenger Rail Committee) includes 21 State agencies which 
manage 29 Amtrak routes. Those State-supported routes represent 
nearly half of Amtrak's total ridership, about 15 million 
riders a year, and we contribute about $750 million in revenue 
to Amtrak in terms of both passenger revenue and State 
payments.
    State partners are heavily invested in their routes, and we 
invest heavily in our routes, and that is why we appreciate the 
partnership and funding. I cannot overstate the importance of 
sustained and dedicated funding mechanisms to help us plan for 
investment and actually implement investments.
    That is my theme today. My theme is that almost all the 
projects that we execute and implement have something to do 
with safety, whether it be a track program, a signal program, 
capacity improvement, stations and platforms, grade crossings, 
or facilities, each one of these has a positive impact on 
service and safety. We believe safety is a multifaceted part of 
everything we do.

                         POSITIVE TRAIN CONTROL

    As it relates to Positive Train Control, as Senator Collins 
has already talked about, this is a very big and important 
topic. The Downeaster has needs in that part of our route is 
required to be PTC compliant by the end of the year and the 
rest of it is not. The reason for that is the number of trains 
that are operated.
    We operate 10 trains a day, or Amtrak does on our behalf, 
and the threshold for Positive Train Control is 12 trains. So 
the portion in Maine and New Hampshire, on which we operate, is 
exempted from PTC. However, the part on the MBTA territory is 
required to be PTC compliant.
    Amtrak and Pan Am Railways are working in partnership with 
the MBTA to make sure that all of the pieces are put in place 
and that there will be no disruption to Amtrak Downeaster 
service come the first of the year. It seems to be going well 
and we are hopeful that it is.
    There are still a lot of unknowns for us how that will work 
once it is implemented, being that part of the route is PTC and 
part is not, how that is going to impact our operations, our on 
time performance.
    And also, what the ongoing costs are going to be because 
once it is installed, it is going to have to be maintained. 
What I have been told is that it is going to cost millions of 
dollars and that is probably going to come back to the customer 
and we are the customer. So that is a concern for us.
    I also want to reiterate that just because part of the line 
that we will operate on will not be PTC equipped, that does not 
mean that it is not safe. Pan Am and Amtrak have a very solid 
safety record on the Downeaster service. We work together 
continually and invest significantly in projects that 
contribute to the State of Good Repair of the railroad on which 
we work. There are many facets to safety.
    Now, Amtrak has mentioned that there was some risk of not 
operating trains if the line was not equipped with PTC, but I 
am confident that through the mechanism that was outlined by 
Mr. Gardner, that they are always open to enhancements, but I 
think we will find that we will be able to continue to operate 
without disruption to the Downeaster service.
    We are also considering operating a seasonal pilot service 
to Rockland, which is a 50 mile branch railroad that is owned 
by the State of Maine, which is extremely scenic and it is also 
served by Route 1, which is extremely congested. That is our 
territory.
    But again, looking through a protocol of looking at the 
specific characteristics of the railroad, I am confident that 
we can work with Amtrak and the State of Maine to come up with 
mitigations to operate that service safely as well.
    Now, while I can talk about the safety record that we have 
and the things that we do to improve safety and ensure the 
safety of our passengers, I cannot speak much for motorists and 
pedestrians, which has been talked about quite a bit today.
    Since 2011, the Downeaster has been involved in 18 
accidents. Twelve of them have been associated with trespasses; 
six of them have been associated with grade crossing 
violations. None of these have been the fault of the train, but 
in every circumstance, the headline on the newspaper the next 
day was, ``Train hits pedestrian, train hits car.''
    We need to cast a wide net on this and broaden our safety 
focus and share responsibility, not just with the railroad, but 
with the communities, with law enforcement, and with motorists 
to come up with innovative technology that is multifaceted.
    Kind of bringing things back to local and back to the what 
I was trying to say is that safety happens at all levels. In my 
testimony, I highlighted two examples of the commitment to 
safety that our Downeaster crews have. When there are incidents 
or injuries associated with crews, they are challenged to find 
ways to mitigate that so that those types of occurrences do not 
happen again and injuries do not continue to occur.
    Two specific injuries in which the crew members actually 
worked with local management and the local communities to come 
up with solutions that are now deployed nationally to make sure 
that there are guards on doors so that people do not get caught 
and also improving boarding plates, which improve both the 
safety of the crews and the boarding passengers. We encourage 
that leadership and are very proud to be part of that culture.
    So in closing, I just want to reiterate that safety is part 
of everything we do and part of all the projects. We depend on 
funding for planning and implementing projects, and appreciate 
the flexibility to be able to tailor those investments to the 
specific needs that are important to specific corridors.
    So on behalf of Northern New England Passenger Rail 
Authority (NNEPRA) and my State partner colleagues, I thank you 
for your interest, and engagement, and for the tools that help 
us be successful and safe.
    Thank you and I am happy to answer any questions.
    [The statement follows:]
                  Prepared Statement of Patricia Quinn
    Thank you, Senator Collins, Ranking Member Reed, and this entire 
subcommittee for addressing an extremely important topic--rail safety. 
I would also like to thank you all for passing the fiscal year 18 
appropriations bill, in which you demonstrated strong support for a 
safe, efficient and quality passenger rail system.
    My name is Patricia Quinn and I am the executive director of the 
Northern New England Passenger Rail Authority, which we refer to as 
``NNEPRA''. NNEPRA is a small quasi-government agency which was 
established by the State of Maine in the 1990's, in response to a 
citizen's initiative, to restore passenger rail between Maine and 
Boston, Massachusetts after a 30-year hiatus. As a result, the Amtrak 
Downeaster began in 2001, and operates 5 round trips each day between 
Portland and Boston, with three of those trips extending 30 miles north 
to Freeport and Brunswick Maine. The Downeaster operates at speeds up 
to 79 miles per hour along a 143-mile corridor over three host 
railroads, serving 12 communities in 3 states and carrying over a half 
a million people per year. In its 16 and a half years, the Downeaster 
has transported nearly 7 million passengers the equivalent of 600 
million passenger miles and has stimulated tens of millions in economic 
development along its corridor.
    I also serve in leadership roles in two organizations which are 
critical to this conversation--the States for Passenger Rail Coalition 
(SPRC), comprised of 20 state DOT's and authorities throughout the 
country which work together to support the development and growth of 
passenger rail service and the FAST Act sanctioned State Amtrak 
Intercity Passenger Rail Committee (SAIPRC). SAIPRC is a collaborative 
partnership between Amtrak, 21 State agencies that sponsor Amtrak 
routes, and the Federal Railroad Administration (FRA) which supports a 
vibrant, safe and efficient national passenger rail network which meets 
the needs of the traveling public and encourages economic growth.
    SAIPRC state agencies, referred to as Amtrak State Partners, 
participate in the planning and oversight of 29 Amtrak routes. State 
supported routes carry nearly 15 million passengers each year--almost 
half of Amtrak's total ridership and generate about one-third of 
Amtrak's operating revenues--nearly three quarters of a billion dollars 
each year. These revenues are generated through a combination of ticket 
revenues and service fees. State partners cover the costs associated 
with the operation of their routes and contribute significantly to 
costs incurred by Amtrak for the operation of shared resources and 
assets including stations, equipment, facilities, and technology. 
Additionally, by leveraging Federal funding programs, like those passed 
in the fiscal year 2018 appropriations bill, Amtrak state partners have 
invested billions of dollars improving infrastructure, facilities and 
equipment that improve the quality, efficiency and safety of our 
nation's railroad network.
    Federal infrastructure funding programs have played a critical role 
in these improvements and I cannot overstate the importance of 
dedicated, sustainable funding sources which help agencies like NNEPRA 
plan for and implement projects. Many of the projects undertaken by 
NNEPRA and other state partners throughout the country benefit not only 
specific routes but the national system. These are complex and 
expensive projects, and the ability to partner with the Federal 
government to plan for and implement such projects is critical. We 
thank you for your support and trust.
    NNEPRA, like other state partners, is not a railroad or a rail 
operator, but contract manager for passenger rail service. NNEPRA has 
an operating agreement with Amtrak to provide the equipment, crews and 
reservation services for the operation of the Amtrak Downeaster 
service. Amtrak, in turn, holds agreements with host railroads for 
operating rights. The Downeaster operates over one mile of track in 
Brunswick owned by the Maine Department of Transportation (MaineDOT), 
106 miles of track owned by Pan Am Railways between Brunswick and the 
New Hampshire (NH)/Massachusetts (MA) border, and 36 miles owned by the 
Massachusetts Bay Transportation Authority (MBTA) to North Station.
    NNEPRA, in cooperation with the State of Maine, the Federal Transit 
Administration (FTA) and the Federal Railroad Administration (FRA), has 
funded over $150 million in investments along the Downeaster corridor 
to support and grow the operation of passenger trains, in partnership 
with the host railroads. These improvements, which include track 
infrastructure upgrades such as the installation of continuously welded 
rail, added capacity associated with second tracks, tie replacements, 
grade crossing upgrades and enhanced signals systems, have improved not 
only the efficiency, reliability and safety of the Downeaster, but of 
the freight and commuter services which operate on the corridor as 
well. Highlighting one example, the Downeaster Expansion Project, 
funded through the High Speed Intercity Passenger Rail (HSIPR) grants, 
did more than simply allow Downeaster service to expand to new station 
communities. The project rehabilitated Pan Am freight track north of 
Portland, and included upgrades to lights, gates and communication 
systems at 36 public grade crossings--resulting in an improved system 
for all users and the public.
    Positive Train Control (PTC) is an important safety system which 
has gained national attention and Congressional focus. As you are all 
aware, railroad operators are required to install PTC on corridors 
where more than 12 daily passenger trains operate along with freight, 
by December 31, 2018. While important, this has been an expensive and 
technologically complex system to deploy. The Downeaster service is 
somewhat unique because it operates 10 trains each day and is therefore 
below the threshold for PTC implementation on the MaineDOT and Pan Am 
portions of its corridor. PTC is required on the MBTA portion of the 
Downeaster corridor because 40 plus MBTA commuter trains co-mingle with 
Downeaster and freight trains each day on that 36-mile segment. A 
diagram is provided on the last page of this document to illustrate 
this scenario. Pan Am and Amtrak are working closely with the MBTA to 
assure that PTC installation meets the imposed deadline. The effort to 
deploy interactive systems compatible with all railroad operators 
requires significant coordination and resources including not only 
funding, but personnel. This is a large undertaking, and all are 
committed to a successful implementation.
    Amtrak has assured NNEPRA that its equipment will be compliant and 
able to operate in the MBTA's PTC territory, and that the MBTA is 
making significant progress toward the implementation of PTC along its 
right of way. Pan Am Railways has also assured NNEPRA that it is 
working toward a seamless transition to PTC. This has, however, left 
NNEPRA and the Downeaster service, in somewhat of a vulnerable 
position, dependent upon its partners to get the system installed by 
the deadline--or meet the qualifications for an extension. We are 
confident and hopeful, however, that given our strong working 
relationships with Amtrak, Pan Am and the MBTA, that the transition 
will occur without distruption to Downeaster service.
    Given that PTC is newly implemented technology, it is unclear at 
this time whether it will have an impact on train operations and what 
the ongoing costs of maintaining the systems will be. Given so many 
unknowns, ongoing coordination and communication among the host 
railroads, Amtrak as the operator, and state partners will be needed to 
fully evaluate and determine what resources may be required in the 
future to support PTC.
    Recent incidents have heightened Amtrak's focus on safety and has 
lead to the implementation of a new safety/risk assessment process. 
Amtrak leadership has also cast some doubt as to whether Amtrak will 
continue to operate trains in territory which is ``dark'' or where a 
PTC waiver is in place, such as the Downeaster corridor. This has added 
extra concern for NNEPRA and other state partners in similar 
situations. I understand that Amtrak will conduct its risk assessment 
on the portion of Downeaster corridor which is not required to be PTC 
compliant. After that assessment, there will be more information to 
determine what, if any, supplemental safety measures (and resources) 
may be necessary. Additionally, NNEPRA is seeking to conduct limited 
seasonal weekend service on the state-owned Rockland Branch in 2019 as 
a pilot to increase Downeaster ridership and revenue and to improve 
mobility along this scenic and congested coastal corridor. The Rockland 
Branch is dark territory, and therefore the risk assessment will be 
performed by Amtrak on this line as well to determine what, if any, 
additional safety measures may be required. We look forward to working 
with Amtrak and the host railroads on these assessments, tailored to 
the characteristics of the Downeaster, to identify improvements 
specific to the Downeaster operations. This seems to be a prudent 
approach, providing flexibility to match investment with need, and 
ultimately achieve the most impactful results.
    It is important to note that since 2011, Downeaster trains have 
been involved in 18 incidents; 12 were caused by trespassers on the 
line and an additional 6 were caused by vehicles breaching grade 
crossing warning systems. In most cases there were only seconds to 
react, and whether controlled by a computer or the engineer, there is 
no way the train could stop in time to avoid the vehicle or person on 
the track. While these incidents did not result in any serious injuries 
to Downeaster passengers or crew members, many resulted in serious 
injury or death to the other person(s) involved, and in most cases, 
hours of delay to passengers on the train simply trying to get to their 
destination. These incidents are tough on our crews and on our 
passengers.
    Continued support for grade crossing upgrades and separations in 
addition to education and outreach efforts to inform motorists and 
pedestrians that it is extremely dangerous to try and ``beat a train'' 
and that railroad corridors are not places for recreation. Programs 
such as the 130 program and other discretionary programs have and will 
enable states to make route-specific investments which are critically 
important to railroad safety. Further, funding for organizations such 
as Operation Lifesaver or other public safety information efforts must 
remain a priority.
    Despite the incidents noted, the Downeaster operating team has an 
exceptional safety record. There have not been any significant 
passenger injuries since the inception of the service; crew injuries 
have been relatively minor, with no reportable injuries in 18 months. 
In fact, Amtrak crews working on the Downeaster have been proactive and 
innovative at finding ways to reduce and eliminate injuries. Following 
an incident when an engineer severed his finger on a door inside the 
train, the team designed a guard which would prevent the same thing 
from happening again. That guard has since been adopted nationally on 
all Amtrak trains. The placement of 32-pound metal bridge plates, 
deployed by conductors for passengers boarding Downeaster trains, 
caused some crew members to suffer shoulder injuries and/or back 
injuries. As a result, Amtrak's Downeaster team took the initiative to 
work with a local university and manufacturer to design and produce a 
plate made of composite material which weighs only 15 pounds. Today, a 
21-pound composite plate with wheels and safety railings for boarding 
passengers, is now used on all Downeaster trains and is being adopted 
nationally.
    In closing, I just want to reiterate that safety is part of 
everything we do, and safety improvements come in many shapes and 
sizes, and the need for safety improvements is continual. Working 
together, Amtrak, host railroads, and state partners like NNEPRA, in 
partnership with the Federal government, have invested wisely and have 
made great strides in improving railroad safety for passengers, 
employees and communities. Although PTC adds a significant safety 
feature, opportunities and efforts to improve safety must and will 
continue far beyond this initiative. The opportunities provided in the 
fiscal year 2018 appropriation, including CRISI, SOGR and BUILD grants, 
as well as the 130 Grade Crossing program, will enable States and 
Amtrak to continue to invest and improve the operation and safety of 
their routes. Again, sustained and dependable funding sources are the 
key to allowing us all to plan and ultimately improve the efficiency, 
quality and safety of our nation's rail system.
    On behalf of NNEPRA and all state partners, I'd like to express 
appreciation for your continued interest and support for important rail 
investments and safety improvements. I appreciate the opportunity to 
speak with you today and am happy to answer any questions you may have.
      positive train control (ptc) requirements for the downeaster
PTC is required to be installed on lines where there are 12 or more 
passenger trains intermingled with freight.

10 daily Downeaster trains operate 143 miles from Brunswick to Boston.
40 daily MBTA Commuter trains operate between Haverhill, MA and North 
Station.

Pan Am owns the track from Brunswick to the MA/NH State Line.
The MBTA owns the track from the MA/NH line to Boston North Station.

PTC is not required on the Pan Am-owned section of the Downeaster route 
because there are only 10 passenger trains on that segment.
PTC is required on the MBTA-owned portion in Massachusetts because 
there are 50 trains per day. MBTA and PAR are working on the 
installation of PTC on the MBTA line.

It is unclear if they will meet the deadline.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Collins. [presiding]: Thank you very much, Ms. 
Quinn.
    Mr. Leahy.
STATEMENT OF ART LEAHY, CHIEF EXECUTIVE OFFICER, 
            METROLINK
    Mr. Leahy. Thank you. Good afternoon, Chairman Collins and 
Ranking Member Reed. Thank you for having us here today to 
comment on rail safety.
    Metrolink is the first commuter railroad in the Nation to 
have operating PTC on all of our entire host territory. 
Metrolink is L.A.'s, and southern California's, regional rail 
provider in networks connecting six counties across seven lines 
that traverse more than 500 miles of track.
    I should note, we operate on the LOSSAN Corridor out west, 
which is the second busiest Amtrak corridor in the country 
after the Northeast Corridor, and is one that is still rapidly 
growing.
    Our freeways in southern California are at capacity. Our 
population is still growing and spreading out, so our trip 
lengths are getting longer. The only way to relieve traffic and 
congestion in Los Angeles and southern California is getting 
cars off the freeway, and Metrolink does that. Our folks take 
the train to work rather than driving.
    We have done a number of things at Metrolink over the past 
few years because of our goal to have improved safety, inward-
facing cameras, for example, and crash energy management cars 
were implemented years ago.
    Our journey into PTC really was triggered by a tragedy on 
September 12, 2008. Twenty-five people lost their lives, and 
many more were injured, when there was a collision between our 
train and a freight train in Chatsworth.
    I should note for you that the day of that accident, the 
Board of Metro and Metrolink, the mayor, and others, were at 
the scene and they were there all night long. They saw the 
horrible consequences and it was that which led to the 
unyielding objective of southern California to get PTC in place 
as soon as possible.
    We have invested $220 million to develop, install, test, 
and certify the PTC system. Nearly 83 percent of these dollars 
have been either State or local sources. We have had some 
Federal help from a number of agencies, FTA, FRA and others, 
and we appreciate that, but it has been a great deal of expense 
on our part to get where we are today.
    Today, we are about 95 percent compliant on all of our 
right of way with PTC. We are completing interoperability 
testing with Burlington Northern and Union Pacific, and we 
started the initial testing of interoperability with Amtrak. We 
are very pleased about that.
    We appreciate that Amtrak is committed to getting it done 
on time of the deadline and we believe the other three 
railroads, Metrolink included, will be as well.
    I should note for you that, as was just said, that PTC 
costs do not stop when you begin to run it. You have to test 
it, maintain it. You have to have training. You have to have 
all these sorts of things to make sure that the system 
continues to operate safely. I should note for you that we 
expect our ongoing costs to be about $10 million per year doing 
those activities that I have just mentioned.
    I would note for you that, in addition to those sorts of 
accidents as have been referenced, we have had terrible 
accidents involving automobiles, involving trucks, and 
pedestrians. I should note that we have an increasing number of 
homeless encampments along our right of way and Amtrak's right 
of way all around southern California and that only enhances 
the chances of accidents occurring. So it is an issue which we 
are seeking to deal with.
    I should note that Metrolink operates throughout southern 
California and we also work with the freight railroads to get 
our trains out. We dispatch about 300 trains a day from L.A. 
into the ports of L.A. and Long Beach, as you know, the busiest 
port complex in the United States. So we are very pleased to be 
doing that.
    We have recently been working with the State of California 
for a system called SCORE, Southern California Optimized Rail 
Expansion, which basically seeks to enhance and increase the 
frequency of our trains throughout southern California area. We 
just received funding of $1.2 billion of State funds to get 
this done all over southern California through the six counties 
that I have just mentioned.
    We appreciate the help from this committee, our senators, 
and the Department of Transportation.
    We all share these unique challenges of trying to run a 
railroad in corridors that are oftentimes not fully controlled, 
but we are going to keep at it until we do achieve the safety 
that we all want to have happen. Our goal is to provide safe, 
reliable service through very congested corridors all over 
southern California. It is simply too important to ignore.
    Madam Chair, thank you for including Metrolink in this 
hearing.
    Thank you.
    [The statement follows:]
                   Prepared Statement of Arthur Leahy
    Good afternoon, Chairman Collins, Ranking Member Reed, and Members 
of the Subcommittee. Thank you for the invitation to join this 
important hearing on rail safety and for the opportunity to share 
Metrolink's experience as the first rail operator in the nation to have 
Positive Train Control (PTC) in-service across our entire host 
territory. Metrolink is Southern California's regional rail provider, a 
network connecting six counties across seven lines that traverse 538 
miles of track. Serving a population of 18 million, Metrolink is 
responsible for moving people safely and reliably through a region of 
national significance that hosts the nation's largest international 
trading hub.
    Southern California would grind to a halt without Metrolink. Each 
of our riders--almost 43,000 them daily--travel an average of 36 miles. 
The vast majority of Metrolink riders own vehicles but choose to leave 
them at home. As a result, our service removes up to four lanes of 
traffic in a region with some of the worst freeway traffic in the 
world. Our service gets people to and from their jobs and has the added 
benefit of relieving the commute for all the drivers still on the road. 
We are a large and vital system with a big job to do. We approach that 
responsibility with the principle that safety always comes first.
    Metrolink's trailblazing journey to implement PTC demanded an 
unwavering commitment to safety, and in the process, solidified the 
fabric of the agency to a culture of safety first. The decision to 
implement PTC was born out of tragedy; on September 12th, 2008, 25 
people lost their lives and many more were injured when a Metrolink 
train collided with a freight train in Chatsworth, California. An 
operational PTC system would have prevented this accident.
    Following Chatworth, it was not a difficult decision to dedicate 
the agency to full implementation of an interoperable PTC system. The 
path forward, though, came with significant technological, operational 
and funding challenges.
    Overcoming those challenges--the trial and error, the countless 
cycles of testing software and hardware version upgrades--has helped 
the technology to mature and reduced the testing burden for subsequent 
railroads. We played a key role in developing many of the processes, 
standards, agreements and submittals that the rest of the industry 
relies on and improved the efficiency for subsequent railroads. We take 
pride that Metrolink is a training ground for many staff and contractor 
resources that utilize their new skills to serve the entire industry to 
protect the safety of passengers across the country. Metrolink's 
trailblazing PTC effort has benefited not only Southern California, but 
the entire nation.
    To date, the Metrolink Board has invested $220 million to develop, 
install, test, and certify our PTC system. Nearly 83 percent of this 
funding came from state and local sources, with the Federal 
contribution coming from ARRA, FTA and FRA Rail Technology grants and 
High Speed Intercity Rail funding.
    Metrolink is currently operating at 95 percent PTC compliance on 
our owned right-of-way. We have completed interoperability testing and 
are operating PTC in revenue service with Burlington Northern Sante Fe 
Railroad and Union Pacific. We have begun initial phases of 
interoperability testing with Amtrak. While we are concerned that the 
deadline is quickly approaching, we appreciate Amtrak's statements that 
they will have their PTC system fully-operational in time to meet the 
deadline.
    Importantly, the investment for PTC does not stop at installation, 
implementation, or even interoperability. Operating and maintaining PTC 
requires sustained and reliable funding of PTC assets. Despite the 
progress we have made, this technology is still in its early phase. 
Additional capital, operating and rehab investment is required to fully 
deploy, operate and maintain these systems, including upgrades to 
leverage their full capability and tools to improve operational 
efficiency, reliability and security. Metrolink's average yearly 
maintenance and operations cost to support our PTC system is 
approximately $10 million, which is entirely borne by our already 
oversubscribed operations budget. Without additional funding to support 
these costs, it requires redirecting funding that could otherwise be 
spent on critical rehabilitation projects.
    While PTC is foundational, it is not exclusive. PTC is a vital 
component of a complete system of rail network safety that includes 
keeping the railroad in a state of good repair and ensuring a safe 
operating environment for cars and pedestrians, as well as for 
passengers. Investments are needed for technological interventions and 
capital improvements to protect the right-of-way and improve safety at 
crossings to prevent strikes.
    Metrolink operates throughout Southern California where almost half 
of our nation's imports and exports enter through the Ports of Los 
Angeles and Long Beach and move throughout the country by rail. 
Metrolink dispatches up to 300 passenger and freight trains a day on 
this shared corridor. Maintaining the railroad in a state of good 
repair, and improving the capacity of the existing system, is vital to 
ensuring both passengers and freight operators travel safely and 
efficiently through concentrated population centers.
    Unfortunately, funding to support optimized rail service is not 
commensurate with the need. Los Angeles, the heart of the Metrolink 
system, has the distinction of hosting some of the worst traffic in not 
only the nation but the world. In addition, we operate on shared 
corridor that hosts the busiest freight and goods movement corridor in 
the nation. Targeted, smart investments in capital improvements could 
unlock the gridlock and unleash the economic engine for the benefit of 
the entire nation.
    Metrolink worked in partnership with our freight partners and 
intercity rail to develop a roadmap to achieve optimized rail service 
called the Southern California Optimized Rail Expansion (SCORE) 
program. SCORE identifies the capital improvements necessary to achieve 
system wide 30-minute, bi-directional service all while accommodating 
increased freight capacity. If fully funded, this plan would transform 
mobility in the busiest corridor in the nation. We are pleased that the 
state just awarded Metrolink a significant down payment towards this 
effort with $1.2 billion in state funds directed to achieve the first 
phase of our SCORE plan. We look forward to working with this 
Committee, and our two Senators, the Department of Transportation, and 
other Federal partners to build off this initial investment to achieve 
the full SCORE vision.
    Passenger railroads across the country share these same unique 
challenges and opportunities. We have the task of operating on 
territory shared with our freight partners. Upgrades to this shared 
rail network- adding track and other capacity improvements- benefit 
goods movement and passenger movement alike. We also share the need to 
support the ongoing maintenance and operations of our PTC systems and 
must ensure they are interoperable with our freight partners.
    Given these issues, which are systemic to almost all commuter 
railroads, we look forward to working with you to develop and recognize 
the unique function commuter rail can play to address the nation's 
transportation needs. Our mission- to provide safe, reliable service 
through congested corridors--is simply too important.

    Senator Collins. Well, first of all, Mr. Leahy, 
congratulations to you for making such progress and such an 
effort in response to the crash that would have been prevented 
by PTC. I put up a chart of some of the crashes where lives 
would have been saved if PTC had been implemented. The effort 
you have made is truly commendable.
    Mr. Leahy. Thank you.
    Senator Collins. Mr. Batory, I was alarmed to hear you say 
today, and I think this is accurate, that fewer than 25 percent 
of passenger miles are covered by PTC.
    Did I understand you correctly?
    Mr. Batory. Yes, Chairman, you did understand me correctly 
because there is a difference in the criteria insofar as the 
prerequisites that have to be fulfilled by the railroad 
industry insofar as satisfying the 12/31/18 deadline.
    In the case of Class I railroads, they must have 51 percent 
of their to-be-compliant PTC route miles up and running by 12/
31/18. Also, Amtrak must do the same. Amtrak primarily has its 
ownership, other than that for Michigan, over on the Northeast 
Corridor. Every place else they operate, they operate as a 
tenant. So as a result, they are far past the 25 percent.
    But when you get into the commuter railroads, it is revenue 
demonstration that must be shown prior to 12/31/18. That is, 
any particular line segment that they propose to FRA, and FRA 
concurs for that revenue demonstration, that segment could be 5 
miles; it could be 25 miles just to demonstrate that the system 
works. And that gets them past the 12/31/18 deadline so long as 
all their equipment is up and running.
    I should say, up and installed and running where the 
revenue demonstration is.
    Senator Collins. Right. You mentioned that you have done 
extensive outreach and your staff to all of the relevant 
railroads, and that there were three general issues that came 
up as obstacles.
    You mentioned supply, the host-tenant issue, the 
reliability issue and testing. But that does not tell us why 
some, such as Mr. Leahy's railroads, have made so much progress 
and others have not. Since, presumably, all of them face those 
challenges that you listed in your testimony.
    Could you give us more insight on why there is such a 
variation among passenger railroads in particular?
    Mr. Batory. Yes, let me, in respect to time, I will call it 
the 10 year journey, 2008 to 2018. We know that we had another 
statute that came about in 2015 that superseded, in part, what 
was set forth in 2008.
    What we have found among the 41 to-be-compliant railroads 
is that the majority of the issues resided among the commuter 
railroads. There are four issues, though, that I would like to 
bring to light to this committee.
    The first issue was the development of the technology, the 
intellectual property associated with that technology. The 
equipment that needed to be developed, and the writing of the 
regulations, which was first and foremost so that much of this 
equipment could be developed properly to fulfill the 
regulations; that, by itself, added to the 10-year window of 
approximately 2 to 3 years beyond 2008.
    And it continues to evolve today as we, if you will, iron 
out wrinkles associated with the evolving technology because 
none of this is plug and play equipment.
    The second item I would like to bring up, and it was very 
obvious among the commuter railroads, and it has nothing to do 
with the quality of leadership. It has to do with the quantity 
of leadership insofar as change.
    Over this ten year period, if you look at these commuter 
railroads and recognize the amount of change in the leadership 
chairs, both at the Board of Director level, as well as in the 
senior leadership level, there was a considerable amount of 
change in comparison to what has transpired in other sectors of 
the railroad industry.
    Leadership, sustained leadership to be committed to this 
statute of 2008 and 2015 is paramount and that is what we have 
seen among the Class I railroad community, as well as some 
unique commuter agencies, such as Metrolink, such as SEPTA, 
which are testaments to what I am sharing with you right now.
    In fact, when we started our face to face, one on one 
meetings with these entities, we deliberately reached out to 
what we term the poster children of PTC and that was Metrolink 
was our first meeting because we wanted to know the most we 
could find out about the best, followed by Burlington Northern 
and Santa Fe, based on what they reported. They, too, were a 
leader among the Class I community.
    There is also an issue concerning money, and not that 
anyone would not accept a check, either coming into the FRA 
offices or leaving, but there were only two entities of the 41 
to-be-compliant railroads that said they did not have money to 
fulfill their obligation to PTC. One was in New Mexico, the 
other one was in northern California. They were both unique 
circumstances.
    But we think with what is going on right now with the money 
that is out there through the most recent NOFO process, as well 
as the one that was issued during the first quarter of this 
year, we might see a positive resolution to both of them.
    The last one I want to talk about is the demand capacity 
issue in this boutique supply industry.
    What was very interesting after we sat down, again, for the 
first time since the original statute in 2008 with the supply 
industry; we sat with the ten leading suppliers. We found out 
that 10 percent of the 41 to-be-compliant railroads engaged the 
supply industry prior to 2008. There was roughly 47 percent 
that engaged the supply industry up to 2014. There was another 
40-plus percent that had done nothing in the way of engagement 
of the supply industry until 2014 and 2015.
    So as a result, you have this boutique supply industry 
trying to provide customized technology to each and every 
railroad. And they really have suffered an avalanche of demand 
since 2015.
    Senator Collins. Thank you.
    Senator Reed.
    Senator Reed. Thank you, Chairman Collins.
    Administrator Batory, we know that the Notice of Funding 
Opportunity for the entirety of the CRISI funds appropriated in 
2017 and 2018 was completed and ready to go out the door. But 
then yesterday, we were a bit disappointed when we found that 
DOT decided to change course and make available only the $250 
million for PTC implementation.
    Why was that decision made?
    Mr. Batory. Well, let me segregate it, Senator Reed, this 
way. There was $68 million that was announced during the first 
quarter of this year, which is fiscal year 2017, which will be 
coming due for consideration and awarding next month.
    And then as of this week, we issued the $250 million that 
was carved out of the total CRISI where it was PTC-specific. 
Rather than follow the traditional 90-day application period, 
we reduced it to 45 because time is of the essence and there 
has to be a sense of urgency.
    So in addition to that, we have already embarked with the 
Short Line Association, regional railroads and short lines, as 
well as that of APTA where we have asked them to host Webinars 
with their entire memberships.
    Now, Webinars are not new to the FRA, but this is new where 
the FRA has reached out to the associations to get broad 
dissemination of the monies that are going to be available for 
PTC. And not only give clarity to that membership of what is 
available, vet their questions with solid answers and solicit 
their subscription to this available money.
    It is very, very important to get this accomplished within 
a reasonable period of time because I currently know of 12 at-
risk railroads. We have reduced it by 20 percent since the 
fourth quarter of last year that need this money for onboard 
equipment, wayside equipment, and some back office equipment.
    Insofar as carving out the $250 million out of the total 
CRISI, safety is of the utmost priority in all of our lives. It 
is, if you will, the cornerstone or the keystone at DOT. It 
permeates down. It does not change any at FRA.
    Then when we get into areas of priorities, you have subsets 
of priorities and PTC is first and foremost.
    Senator Reed. Let me stop you right there.
    Could you have allocated more than $250 million for PTC 
implementation?
    Mr. Batory. There was $318 million that was allocated.
    Senator Reed. Could you have allocated more in addition to 
what you have already allocated?
    Mr. Batory. CRISI allows you.
    Senator Reed. You could have made all of the appropriated 
funding available for PTC, if you wanted to. The minimum set 
aside for PTC was $250 million. The need, I suspect, is much 
greater than $250 million. And yet, you have put the remaining 
funding on the side. We do not know when that funding is going 
to be made available. And when it is NOFO-ed load, we do not 
know what you are going to do.
    If PTC is the critical issue and if safety is the most 
important issue, why did you not go ahead and make as much 
funding available as you thought could be absorbed?
    Mr. Batory. That is not to say that there would not be 
further notice.
    Senator Reed. You made that limited amount of funding 
available yesterday. You decided that PTC was important, but 
not important enough to give more than $250 million to it.
    Mr. Batory. PTC is at the top of our priority and the 
amount of applicants we get will determine whether or not the 
amount of money out there will suffice the need.
    Senator Reed. Thank you.
    Ms. Quinn, how is your railroad doing with PTC 
implementation?
    Ms. Quinn. Only the portion of the corridor that is in the 
State of Massachusetts is required to be PTC compliant. And 
according to my colleagues at Amtrak, they believe that the 
MBTA is going to be able to meet the deadline without 
interruption to the Downeaster service.
    Senator Reed. What about the progress of other railroads 
that you operate with, Mr. Gardner, in terms of PTC 
implementation? Is there a significant need for funding to 
assist those efforts, and are they aware that it might be 
available or do they need a Webinar?
    Mr. Gardner. Thank you, Senator Reed.
    I think there is clearly room for sufficient investment in 
PTC implementation primarily across the commuter railroads and 
smaller railroads. I am not able to give you an estimate of how 
much is required, but certainly the CRISI funding provides, as 
you said, a broad opportunity for safety investments.
    We have certainly reached out with partners like Ms. Quinn 
to look at opportunities for partnerships between States and 
Amtrak to go after those investments so we can improve our 
system. We are anxious to do that as we can.
    Senator Reed. The state of good repair of a railroad, Mr. 
Gardner, is that a safety concern for Amtrak operations? Can 
you give us any examples? There is also $275 million that is 
waiting to be dispersed by the FRA for those programs. Is that 
correct?
    Mr. Gardner. That is correct.
    Senator Reed. Can you give us some examples about how 
critical this funding is to your operations?
    Mr. Gardner. Absolutely. As you mentioned, Senator, there 
is a very significant backlog of State of Good Repair 
investments needed across the Northeast Corridor and across 
various parts of the rail network at work that we serve. The 
Northeast Corridor is the most dramatic example of this.
    State of Repair is absolutely fundamental to both the safe 
operation of the railroad and the reliable operation of the 
railroad, and ultimately, its marketability.
    So we need to have assets that are within their useful life 
and good condition because when we do not, we have unplanned 
disruptions. We have problems that arise that delay trains and 
pose safety risks.
    So getting access to the dollars that you all appropriated 
is going to be very important. I am sure that is a high 
priority for all of us and we are working actively to find 
partnerships amongst ourselves and the commuter rails that use 
the Northeast Corridor, so we can go after these funds and put 
them to good use.
    Senator Reed. Thank you.
    Thank you, Madam Chairman.
    Senator Collins. Ms. Quinn, you mentioned that you are 
confident that the Massachusetts Bay Transportation Authority 
will do its part to avoid any interruption in service for the 
Downeaster, and that is very good news, and that is my 
understanding as well.
    You also mentioned, however, that there are ongoing costs 
related to the maintenance of the PTC system.
    Is it clear who will be responsible for those ongoing 
costs? Is it the host railroad or is it the tenant?
    Ms. Quinn. Thank you for the question, Senator Collins.
    I am actually not sure yet. The agreement that we have 
specifically with the MBTA is their contribution to the 
Downeaster service is that they do not charge Amtrak on our 
behalf for operating rights or maintenance on the line.
    But again, given the order of magnitude of the maintenance 
and operating costs that were mentioned by Mr. Leahy, I think 
that it remains to be seen if that is the case going forward.
    I also know that there will be additional costs potentially 
associated with Pan Am, who has to equip their locomotives, and 
there is also a tie in, and a back office, and they dispatch 
part of the line.
    So again, with so much hyper focus on the installation, I 
do not think we have gotten to the point of really identifying 
what specifically the costs are.
    And also, other impacts like resources that Pan Am is not a 
Class I railroad. It is a regional railroad and we have a 
number of projects, many of them State of Good Repair, but with 
smaller resources in terms of staffing. The reallocation of 
those to focus on PTC has been kind of an opportunity cross for 
us.
    And so going forward, I think we have some questions and 
concerns about, again, the interoperability, about the impact 
on on-time performance. And all of these will have some level 
of cost associated.
    I am anticipating a somewhat bumpy road and a learn-as-you-
go kind of situation. Then we will probably be in a much better 
place 18 months from now to answer those questions than I am 
today.
    Senator Collins. Well, that is something we will certainly 
need to keep an eye on.
    Mr. Gardner, you mentioned that Amtrak has committed to 
improving the safety of all routes regardless of the PTC 
mandate.
    What specific safety improvements is Amtrak contemplating 
for the Downeaster?
    Mr. Gardner. Well, thank you, Chairman Collins.
    We are looking at, really, a process, a risk assessment 
process that we are applying to all of the routes where we 
believe an extension will be granted, or for any of the routes 
that have exemptions to the PTC requirement.
    We have started piloting that work. In fact, we just 
completed our first pilot of this process for the Ethan Allen 
service in Vermont. This allows us to look at all the different 
risks that are presented on an individual segment of railroad.
    On Ms. Quinn's route, you have a centralized traffic 
control system in place. That creates a series of safety 
mitigations that are helpful to that route. Other routes do not 
have signal systems.
    And so, we look at each of these instances, come up with a 
series of both operating practices and investments that we can 
then seek to apply to the routes so that we can maintain the 
service levels, which is absolutely our goal. And do that in a 
way that has the same level of safety for your constituents in 
Maine that we have anywhere across our network.
    We will have those analyses undertaken over the spring and 
summer, and then by this fall we will have, I think, a 
conclusion there and we will begin rolling out those 
mitigations.
    We appreciate the subcommittee's dedication of funds in 
fiscal year 2018 to be able to fund some of this work. Some of 
it may not cost much in the way investment, but we will make 
sure we have appropriate mitigations.
    Senator Collins. Thank you.
    Senator Murray.
    Senator Murray. Thank you very much, Chairman Collins. I 
really appreciate you holding this hearing today, and Ranking 
Member Reed.
    As the Chairwoman mentioned, on December 18, 2017 Amtrak 
Cascades Train 501 derailed as it was crossing an I-5 overpass 
near DuPont, Washington. That tragic accident killed 3 
passengers and injured 70 people, who were either on the train 
or in their vehicles on the road below.
    The images of that wreck were just haunting and we know the 
NTSB investigation is ongoing. The preliminary report indicates 
the Positive Train Control would have prevented this terrible 
accident. But this is, as you know, just the most recent case 
in which PTC would have prevented deaths and injuries.
    And leads me to ask today how we, Congress and this 
Administration, can do more and do everything we can to prevent 
future accidents, and make sure families do not get that 
horrific phone call families in my State got.
    It is really critical that PTC is fully implemented by the 
2018 deadline. So I am really deeply troubled with the Federal 
Railroad Administration's assessment that shows 12 out of the 
41 railroads and commuter railroads required to implement PTC 
are at-risk of missing the December 2018 deadline and failing 
to qualify for an alternative schedule.
    Administrator Batory, I believe the Administration is 
committed to achieving full PTC implementation. But I want to 
know specifically what you are doing to work with the 
railroads, with Amtrak, with commuter railroads to make sure 
they implement PTC.
    You note in your written testimony that FRA can impose 
fines for missing the deadline, but the discussions on 
enforcement actions are still ongoing. We are less than 7 
months away from this deadline.
    When will FRA make a decision so that railroads know there 
will be consequences for failure to meet that PTC deadline?
    Mr. Batory. Thank you, Senator.
    Let me address the first part of your statement, which was 
the accident itself with Amtrak Train 501. It was a most 
disheartening experience that I have shared since my retirement 
from the railroad industry when I saw that devastation.
    When I started reading and learning more of the facts that 
were forthcoming, it was obvious that we had a human failure 
that day. PTC would have prevented that human failure because 
with PTC, it would have recognized that permanent speed 
restriction of 30 miles an hour, and that train would have 
slowed automatically had the engineer not done it himself. So 
all that said, PTC would have prevented it.
    As far as what we are doing today, and what we have done 
thus far with the railroads in trying to move the needle, among 
all 41 railroads, including the 12 that we have just identified 
that are at-risk.
    In addition to the face to face meetings, we are now in 
respect of their time embarking on, next week, having 
individual, lengthy conference calls to eliminate the travel 
with each of the 12 railroads, their leadership, to find out 
exactly what has been accomplished since their first quarter 
report, what needs to be accomplished in order to satisfy the 
prerequisites of 12/31/18 so we can ascertain what we can do to 
help foster and facilitate a successful resolve to their 
attempt to fulfill their statutory prerequisites. We cannot do 
the work for them, but we can certainly give support, insight, 
and suggestions.
    We intend to continue, during third quarter and fourth 
quarter after those calls are completed, to meet with those 
railroads individually, everybody that is at-risk, face to face 
not less than once a month.
    Now, you might ask yourself, ``What is going on during the 
rest of the month?'' There is tactical dialogue going on every 
day among our staff of 16 in Washington, along with the 80-
some-odd railroad inspectors we have in the signal corps across 
the United States.
    The third item, insofar as violations and associated 
penalties that come with those violations, so far the FRA 
recently, for the first time, assessed violations and fines. 
Those violations that we assessed and associated fines were not 
that of the maximum amount.
    What I have advocated to the Secretary and to the Office of 
Secretary's staff, as well as FRA, going forward we should do 
nothing less than the maximum.
    PTC is never going to end once it is installed. It is a 
living system and you have to get people to comply with what 
the administrative prerequisites are to maintain PTC. And then 
once you have that in place, you can then administer and 
monitor the operation of PTC going forward.
    But it is critical that people do what they are supposed to 
do, such as their safety plans and their implementation plans.

                           ENGINEER TRAINING

    Senator Murray. Which I have a question about, and if you 
would indulge me, just to let me ask Mr. Gardner one question 
about training.
    Because according to the ``Seattle Times,'' the training of 
the employees is a serious concern. They outlined that 
employees were concerned that engineers had piled up into a 
single locomotive car to do the training runs as a group. 
Conductors were largely kept in cars further back in the train 
or on the trailing locomotive. Some did their familiarization 
runs in the dark after midnight. Supervisors were unwilling or 
unavailable to answer questions about key characteristics on 
the route. And safety starts with training, Mr. Gardner, it 
clearly was not adequate.
    What are we doing about that?
    Mr. Gardner. Well, thank you, Senator Murray.
    Not getting into the specifics of the incident given the 
NTSB investigation, but I can say absolutely we have very 
significantly reshaped our training efforts for qualifications 
for new routes and for routes that have undertaken any kind of 
change in their characteristics.
    We have centralized that training. We have created a very 
specific process to ensure both that we have an adequate review 
of all of the conditions on either a new route or a changed 
route. And that we have a review process to determine exactly 
the level of training, the number of qualification runs, and 
the type of runs that will be made.
    And then I have also instituted a process to ensure that 
engineers and conductors who are qualified are then quickly 
checked to ensure their fluency and competency for the routes.
    We have significantly changed our approach here to ensure 
that we do have both one common standard across all of Amtrak 
and a much higher level standard for qualifications to ensure 
that every time we operate on a new route, that it is done so 
with the utmost level of safety.
    Senator Murray. Okay.
    And Madam Chairman, I would just ask that the FRA get back 
to this committee on whether they have reviewed the training 
programs and what their solutions are to this.
    Senator Collins. We will make that request.
    Senator Murray. Thank you.
    Senator Collins. Senator Reed.
    Senator Reed. Thank you very much, Madam Chairman.
    Mr. Leahy, thank you for being here today. Metrolink has 
been a model for other commuter rail in terms of PTC 
implementation. I cannot think of anyone better to discuss the 
big challenges that you faced for PTC implementation that would 
be instructive to other systems, and also to ask if you have 
any advice after going through this process.
    Mr. Leahy. Thank you, Senator.
    It was a very difficult process. We started on it early on, 
but it was new technology that was being developed real time 
with us with the contractors. We had to do a great deal of 
troubleshooting, and training, and retesting, and validating. 
It took a great deal of time.
    I think my recommendation to somebody would be you should 
start as soon as possible because you are going to confront 
unique challenges.
    By the way, we would help any railroad in the country by 
sharing our experiences and bringing our people to bear on 
them. We have been involved in the trade associations doing 
that and we continue to do it with anybody who would like us to 
do so.
    Senator Reed. Mr. Leahy, part of getting started 
immediately is being aware that there is Federal funding 
available. That might not be the decisive factor, but without 
the availability of Federal funding, it is very difficult to 
get started.
    Is that fair?
    Mr. Leahy. Well, in Los Angeles, we were 80 percent locally 
funded. So we wished there had been more money available back 
then, but it was not the case. Obviously, we all know if there 
is money available to do things that you need to do, then you 
have got to go and try to get the money.
    Senator Reed. I think that is probably true of most any 
place.
    Mr. Leahy. Yes.
    Senator Reed. Ms. Quinn, you have great experience 
operating commuter lines, and as we all know, your lines run to 
Boston to connect to the Providence train. Just for the record, 
Madam Chairman.
    Senator Collins. That is very important.
    Senator Reed. It is very important.

                     FUNDING STATE-SUPPORTED ROUTES

    You have been operating a State-supported Amtrak route. You 
have worked out an agreement with Amtrak to share the costs of 
that operation. You have been a leader in this discussion over 
many years.
    The Administration's fiscal year 2019 budget proposed deep 
cuts to Amtrak funding and asked States to put more skin in the 
game.
    Is that something you think you can do?
    Ms. Quinn. Well, I can speak on behalf of NNEPRA and my 
State colleagues and say we have quite a bit of skin in the 
game already. States contribute significantly to Amtrak.
    As I stated in my opening statements, we contribute about 
$750 million a year to the operating expenses. As part of that, 
States do pay 100 percent of the third party costs incurred as 
part of their route. So that is fuel, host rate railroad costs. 
We also pay 100 percent of the route costs, which you might 
think of as kind of avoidable costs of our routes.
    We share significantly, several hundred million dollars a 
year to support shared systems that Amtrak uses to support its 
entire network. Those include facilities, stations, 
reservations, and technology, insurance, marketing, and crew 
support. It is a connected system and it is all taxpayer 
dollars.
    States are already very constrained in terms of what we 
contribute and since PRIIA Section 209, most of our bills have 
gone up significantly. Ours has gone up a couple million 
dollars a year.
    And so, I really think what we need to do is look instead 
of short funding, continue to work with Amtrak to find ways to 
be more innovative and find ways to increase and improve 
efficiency, maybe doing some of the things that we do on the 
Downeaster service, like we outsource our food service. We have 
a station ambassador program, so we do not have staff stations.
    Incidentally, our local communities support the stations 
along our route and that is their contribution. Mechanical 
contractors and we also own a number of the facilities.
    So I think States are willing to invest if there is a 
value, but just creating a void and having us put money into 
it, it would be hard for us back home to justify that on the 
State level, our stakeholders. I think it could be catastrophic 
for the industry.
    If the State-supported routes subsequently go away, you are 
going to see a decrease of Amtrak need on behalf of Amtrak. I 
know when Amtrak provides their financials, they say that 
State-supported routes cost about $60 million a year. I 
respectfully disagree with that.
    I think that we really, based on the factors that I had 
said before, contribute significantly to these shared services. 
I would think that if the State-supported routes started to go 
away that the balance sheet for the Northeast Corridor would 
look a lot different than it does right now.
    Senator Reed. Thank you very much.
    Thank you, Madam Chairman.
    Senator Collins. Thank you.
    Ms. Quinn, your last comment actually is a great segue to a 
question that I want to ask Mr. Gardner.
    Mr. Gardner, although it is a little bit off the focus of 
this hearing, I would be remiss if I did not tell you that I 
have heard from a number of Amtrak passenger coalitions across 
the country that have voiced concerns about some of the policy 
changes that Amtrak has recently embraced in order to generate 
savings.
    I certainly understand the need for a business mentality to 
be brought to Amtrak operations and Congress has directed 
Amtrak to work to make the entire national network financially 
more sustainable. But we have also said we want you to do that 
without compromising service.
    So the issue that I most want to bring to your attention is 
these coalitions of passenger groups feel excluded from the 
process. What I would like to get from you today is a 
commitment that you will increase your outreach to passenger 
coalitions before making fundamental changes in your operations 
and routes.
    Mr. Gardner. Yes, Chairman Collins, we do endeavor to do 
that. And, in fact, for a number of our changes have been in 
dialogue with the impacted parties.
    I concur that some of those policies have not made all the 
constituencies happy, but I think we are trying our best to 
achieve exactly what you have described, which is ways to 
follow, in some respects, many of the types of initiatives that 
Ms. Quinn has been able to develop on the Downeaster, and apply 
those in other places, and reduce cost, and improve performance 
at the same time.
    But fundamental to that is our responsibility to engage 
with these constituencies, and with our customers, and keep 
them part of the process. So we will do that.
    Senator Collins. Thank you.
    Ms. Quinn, my final question has to do with a comment that 
you made, which I thought was very startling. You said there 
had been 18 accidents involving the Downeaster over the years, 
and not a single one of them had been the fault of the train.
    We have learned a lot in looking at rail safety about the 
role that is played by cars or passengers ignoring the grade 
crossings or just wandering onto the tracks in rural areas.
    Could you talk a little bit more about what we could do to 
increase the safety of those trespassers, and car and truck 
violations that are responsible for the vast majority, and in 
your case, every single one of the accidents?
    Ms. Quinn. Yes, and thank you for the question, Senator 
Collins.
    I think that there are some commonsense, kind of low tech 
things that can be implemented. And again, the State of Good 
Repair funding that is provided will help us all work towards 
these.
    First is maintaining the crossings that are there. All the 
crossings have different components to them, road paint, signs 
in advance, cantilevers, brush cutting. How many times do you 
drive by the road and trees are overgrown and they are blocking 
the sign? So making sure that the crossings that exist are 
maintained properly.
    Also, looking at the crossings that do not have active 
warning systems and implementing active warning systems; 
meaning that some only have signs, but do not have the gates 
that come down.
    Fencing is another important opportunity that we could use 
some monies to provide fencing so that people do not have 
access to the right of way and also requiring channelization. 
It is done oftentimes when there is a quiet zone. 
Channelization is putting a little island or some little 
barriers so when the two gates come down, a car cannot ``do the 
weave'' to try to beat the train.
    And, of course, grade crossing separation is the best, most 
expensive and least popular of all the alternatives.
    I think looking towards higher technology, we did partner 
with the Federal Railroad Administration a couple of years ago 
on a pilot program which used cameras and speakers to monitor 
the railroad line.
    When trespassers were on, it triggered; the cameras went 
on. A screen came on in the police department, and the police 
officers were actually able to speak to the person on the line 
and tell them to get off. In a situation, also, we are working 
on a system where they could then, if the person could not get 
off the line, notify the engineer. So I think there is some 
technology there.
    They have now escalated that to the use of drones. So I 
think being able to monitor, some technology maybe to do some 
research and test some technology looking at drones to notify 
the engineer and notify the authorities when somebody is on the 
line.
    Then, again, I do not know what is available in terms of 
applications or technology related to automobiles where an 
automobile would preempt it, and if the gates were down, the 
car could not go. People just need to pay more attention.
    I also think another important facet of this that really 
has not been mentioned today, but should, is concern for mental 
health and support from mental health. There are a lot of 
instances of people who choose to take their lives using a 
train, which is extremely troubling for all involved. So I 
think that needs to be part of the conversation as well.
    So I think more research and looking at these things, 
maintaining what we have, and exploring new technology that 
maybe is not quite as complex or expensive as PTC to be able to 
assure that the rail lines stay safe for the pedestrians, the 
vehicles, and the crews onboard.
    Senator Collins. Thank you very much. That is very helpful.

                    SERVICE FOR LONG-DISTANCE ROUTES

    Senator Daines.
    Senator Daines. Thank you, Chairman Collins.
    Thank you for being here today and talking about these 
important rail safety initiatives. It is a big deal out in 
Montana. We have a lot of ground out there.
    Maintaining safe and reliable rail service is absolutely 
critical for moving our passengers, as well as our goods, to 
their destinations. With 95 percent of the world's consumers 
outside the United States with Montana's number one economic 
driver being agriculture, without rail we do not have an 
agricultural economy in Montana. It is as simple as that.
    I am especially pleased to see the importance Amtrak is 
placing on safety initiatives. As you know the Empire Builder, 
in fact, the Empire Builder was when my ancestors came out to 
Montana. They were Norwegians from Minnesota that heard the 
skiing was better out there and they kept going west. They came 
on the Empire Builder.
    It runs nearly 700 miles through the Hi-Line of Montana. It 
is critically important in not only keeping rural communities 
connected, but also transporting out of state visitors to 
places like Glacier National Park. It is a great way to see 
Glacier.
    Recently, it was announced that two stations in Montana, 
the Havre and the Shelby stations, will be losing their onsite 
ticketing agents. These two towns have long been supportive 
partners of Amtrak. In fact, Shelby is home to one of Amtrak's 
crew bases.
    The Empire Builder is the lifeblood of many of these rural 
communities and I am concerned about the impacts this decision 
might have on Havre as well as Shelby.
    Mr. Gardner, I understand you came to the decision for 
economic reasons. I am sure they were sound reasons.
    What specifically can Amtrak do to continue to meet the 
needs of rural Montanans in these communities, in many cases, 
the elderly who are on fixed incomes, who do not have reliable 
Internet access or the understanding of technology necessary to 
obtain electronic tickets?
    Mr. Gardner. Thank you, Senator.
    I understand your concern about these two stations. You are 
correct that we prioritized removing staff from stations which 
have less than 40 daily on-offs at each station. Each one of 
those station positions costs roughly $100,000.
    So it is a significant expense and our aim is to improve, 
as Congress has directed us, improve the economic performance 
of the natural network while obviously focusing on keeping our 
service and serving the communities.
    Senator Daines. So was 40 kind of a line that you drew 
then?
    Mr. Gardner. We did, we did. We are continuing to look.
    Senator Daines. Are there any other stations on the Amtrak 
network with fewer onsite ticket purchases that still have 
ticket agents?
    Mr. Gardner. No, everything on the long distance network. 
There are some instances potentially on the State-supported 
portion of the natural network where States are paying for 
those costs. They have decided to invest.
    But in general, no. We are de-staffing. We are moving staff 
from these locations and instead, because of the points you 
raised, we are using generally two strategies to make sure that 
we have an adequate presence.
    One is to hire caretakers where we hire someone to come and 
open the station, make sure it is in proper condition, and 
close it so that it is open and available and in good shape for 
the period of time that this station is needed. As you know, 
one train a day, the station is not necessary to be open for 
extended periods.
    Or two, our volunteer host program where we work with 
communities and mayors, and we are able to get staff station 
help through volunteers. We have this around communities all 
over. Ms. Quinn mentioned, in Maine, the extensive program 
there.
    So we are anxious to work and we have been working, really, 
with all the communities impacted here to try and create a good 
footprint, a good presence to serve folks.
    And, of course, the vast majority of our ticketing is done 
either by phone or online today.
    Senator Daines. Again, we have a generation that is not as 
technically savvy.
    Mr. Gardner. Yes.
    Senator Daines. The grandkids, I am sure could do it very 
quickly, but that is not always a solution for them.
    Mr. Gardner. Well, at this stage, passengers can call. They 
can make a reservation. They do not have to print their ticket. 
They can get on the train and the conductors, through their 
handheld, can look up their name and have their reservation.
    So we are trying to make it as easy as we can so that folks 
have the ability to show up at a station.
    We are also looking at our new ticketing platform and 
kiosks that we could make available in-station that allows 
customers to come and be able to both purchase and print any 
materials they need right away, and also access customer 
service through the network.
    Senator Daines. I want to keep it on the long distance 
service here. It is kind of related to that first question.
    With the announcement of removing these ticket agents from 
some of these long distance stations, we have a lot of folks 
back home concerned that this is the first step in limiting or 
eliminating some of these long distance service altogether.
    My staff has heard from numerous groups that there are 
discussions at Amtrak on reducing the Empire Builder to tri-
weekly service.
    As you know, Congress recently reaffirmed its commitment to 
the national network by providing $1.3 billion in the Omnibus.
    For many of these communities in Montana, there is no other 
access to the national transportation network. They are a long 
ways from any interstate highway and it creates a significant 
hardship.
    Mr. Gardner, are there plans to reduce Empire Builder 
service and does Amtrak remain committed to long distance rail?
    Mr. Gardner. Senator, we do not plan to institute tri-
weekly service on the Empire Builder. Obviously, we are 
operating under the FAST Act authorization that Congress 
authorized our network.
    Any conversation about the broad future of the network, I 
think, is best placed in our reauthorization context as we 
approach the next reauthorization. Amtrak is operating, 
although in distress, we intend to do that.
    And we will consider any future changes collectively 
between the Congress and the Administration and Amtrak as we 
look at the network ahead.
    Senator Daines. Thank you.
    Madam Chair, I am out of time. I have one more question, 
but I want to be respectful of everybody's time.
    Senator Collins. Go right ahead.
    Senator Daines. All right.
    Senator Collins. My constituents, I will just blame you 
when I am late for the meeting with them.
    [Laughter.]
    Senator Daines. My word. Let us go fast here.
    Following the discussion I had with Secretary Chao at a 
hearing recently, Amtrak completed a study that showed adding a 
stop in Culbertson, Montana would actually generate a net 
positive financial impact of more than $775,000 for Amtrak and 
would not add any additional time to the schedule.
    That is right out on the edge of the Bakken. You know what 
is going on, certainly, with fracking and the energy industry. 
I worked with both the previous administration and the previous 
leadership of Amtrak to secure support for this project.
    My question, Mr. Gardner, does Amtrak remain supportive of 
adding a stop at Culbertson once station infrastructure is in 
place?
    Mr. Gardner. We do, sir.
    Senator Daines. Thank you.
    Madam Chairman, you can go see your constituents of Maine 
now, thank you.
    Senator Collins. Thank you very much. Seriously, if you 
have an additional question you would like to ask, go right 
ahead.
    Senator Daines. Well, given the chance, I will finish with 
a statement.
    Administrator Batory, in your testimony, you mentioned 
CRISI grants and the huge increases in funding that they 
received in the Omnibus. CRISI is the most obvious source of 
funding for Culbertson to assist in building the station 
necessary for the added stop; just a thought there.
    I know Ranking Member Reed touched on the notice for the 
remaining funds, but I would also like to urge you to get this 
money out soon so places like Culbertson might be able to get 
moving forward.
    Mr. Batory. Thank you, Senator, for that statement. I will 
assure you that I will follow up to find out where we are in 
the process of pursuing the remaining CRISI funds.
    Senator Daines. Thank you.
    Mr. Batory. As we continue to get out the $250 million plus 
the $68 million for PTC.
    Senator Daines. Thank you. Appreciate it.
    All right. I am really finished now.
    Senator Collins. Thank you very much, Senator.
    I want to thank all of our witnesses for being here today. 
This is a day where there are many conflicting hearings going 
on, but I can assure you that there is great interest in your 
testimony and in the issue of rail safety.

                     ADDITIONAL COMMITTEE QUESTIONS

    The hearing record will remain open until next Friday, May 
25, 2018. Additional questions may be coming your way in 
writing.
    Senator Collins. Again, my thanks to each and every one of 
you for your participation and for helping us gain a better 
understanding of this important issue.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted to Hon. Ronald Batory
              Questions Submitted by Senator John Boozman
    Question. The short line tax credit, known by its tax code 
reference as ``45G'', enables the short line railroad industry to meet 
significant investment needs, allowing short line railroads to invest 
their earnings back into maintenance such as upgrading tracks and 
bridges to ensure safe and efficient operations for their companies and 
customers.

  --45G has spurred $4 billion in private infrastructure investment 
        since its inception in 2005.

  --In 2017, I cosponsored S. 407, the Building Rail Access for 
        Customers and the Economy or (BRACE) Act.

  --This bipartisan legislation would make the 45G tax credit 
        permanent.

  --Can you please explain why 45G is important to short line railroads 
        and more importantly, how does the 45G tax credit help improve 
        safety for short line rail?

    Answer. Class II & III Railroads, also known as short line or 
regional railroads, play a vital role in the U.S. transportation 
system, often providing the first and last mile connections to the 
Class I network for freight shippers and customers. There are more than 
600 smaller regional and short line railroads that comprise the U.S. 
freight rail network. Many short line railroads lack the capital 
funding necessary to invest in improvements to their infrastructure and 
equipment. The 45G tax credit incentivizes short lines to make both 
safety and other rail infrastructure investments.
    Question. This February, two Amtrak employees were killed and 115 
passengers were injured when their train collided head-on with a CSX 
freight train in Cayce, South Carolina.

  --The accident happened because the signal system was diverted from 
        the main track through a misaligned switch.

  --To address this accident and others, last month, the Federal 
        Railroad Administration (FRA), released a draft safety advisory 
        related to temporary signal suspensions.

  --What have you heard from industry about the draft advisory?

    Answer. In response to the safety issues underlying the February 4, 
2018, accident in Cayce, South Carolina when an Amtrak train was 
diverted from the main track through a misaligned switch, on April 23, 
2018, FRA published a draft Safety Advisory in the Federal Register. 
The draft Safety Advisory seeks comment on existing best practices 
railroads currently utilize when implementing temporary signal 
suspensions and contains draft recommendations that all railroads 
conducting rail operations under temporary signal suspensions develop 
and implement procedures consistent with the identified best practices. 
The draft Safety Advisory also contains draft recommendations related 
to training and operational testing to ensure the safety of railroad 
operations during temporary signal suspensions. The comment period for 
this draft advisory closed on June 22, 2018. FRA staff have received 
general informal feedback from some railroads indicating they are 
already compliant with the recommendations. FRA is reviewing all 
comments received and will make any necessary changes to the draft 
document.
    Question. What is FRA doing to address grade crossing safety and 
trespass prevention?
    Answer. FRA takes a comprehensive approach to grade crossing safety 
and trespass prevention by:

  --Supporting numerous PTC and highway-rail grade crossing 
        infrastructure projects, in part, with $65 million being made 
        available through the fiscal year 17 Consolidated Rail 
        Infrastructure and Safety Improvements (CRISI) program. 
        Additionally, in fiscal year 18 Congress provided $592.5 
        million for CRISI grants, and FRA has made available $250 
        million that was set aside specifically for PTC implementation. 
        FRA is working expeditiously to make the balance of this grant 
        program available, of which grade crossing and trespass 
        prevention projects are eligible for a significant portion of 
        this funding.

  --Funding Operation Lifesaver's public outreach campaigns to educate 
        and raise awareness surrounding the dangers of grade crossings. 
        FRA also collaborates with technology providers to expand use 
        of crossing data, use predictive human behavior modeling, 
        enhance law enforcement and first responder strategies, and 
        strengthen state safety action plans.

  --Working with stakeholders to develop and use technologies such as 
        vehicle proximity detection systems, video monitoring systems 
        for crossing equipment, and in-vehicle devices.

  --At the direction of Congress, FRA was instructed to develop a 
        national strategy to prevent trespasser incidents--
        incorporating milestones and metrics to define success. FRA is 
        developing the trespasser prevention strategy and it is 
        scheduled to be finished by Congress' August 2018 deadline.

    The fiscal year 2018 Omnibus Appropriations provided FRA and NHTSA 
$6.5 million for a media campaign for highway-rail grade crossing 
safety named ``Stop. Trains Can't.'' It is part of DOT's ongoing effort 
to increase public awareness around railroad tracks and reduce crossing 
and trespasser deaths and injuries. The campaign, national in scope, 
targets the highest risk demographics and states for grade crossing 
accidents.
                                 ______
                                 
               Questions Submitted by Senator John Hoeven
    Question. Mr. Batory, as you know, Positive Train Control (PTC) is 
one of the most ambitious, complex, and costly safety enhancements the 
railroad industry has ever undertaken. The rail industry has been 
working to implement PTC since 2008, and in 2015, Congress extended the 
deadline for industry to comply with PTC to the end of this year on 
December 31, 2018.
    As we near this deadline, many railroads, such as BNSF, which owns 
and operates most of the railroad in North Dakota, have successfully 
implemented PTC on 100 percent of their mandated routes, and on 100 
percent of their locomotives. However, concerns remain on 
interoperability of this technology.
    As many Class I, commuter, and short line rail carriers operate 
rail owned by other railroads, what is the FRA doing to ensure that PTC 
systems on the locomotives of say, Amtrak, are compatible with the 
railroad they are operating on?
    Answer. FRA considers safety, and the expeditious implementation of 
PTC technology, to be of paramount importance. FRA is committed to 
continuing to assist railroads, to the greatest extent possible, to 
meet the December 31, 2018, deadline for full implementation, including 
interoperability, or to qualify for and obtain an alternative schedule 
with a deadline that is as soon as practicable, but no later than 
December 31, 2020.
    The statutory mandate and FRA's implementing regulations require a 
PTC system to be interoperable, meaning the locomotives of any host 
railroad and tenant railroad operating on the same main line will 
communicate with and respond to the PTC system, including uninterrupted 
movements over property boundaries. The statutory mandate also 
specifically requires railroads to implement a PTC system in accordance 
with their PTC Implementation Plans, which, in relevant part, provide 
the agreement in place between each host railroad and tenant railroad 
to achieve interoperability and the methods they will utilize to 
achieve interoperability.
    FRA continues to encourage railroads to conduct the testing 
necessary to ensure PTC system interoperability and to provide 
sufficient time for joint testing between a host railroad and each of 
its tenant railroads. On May 15, 2018, FRA issued a status update on 
its website regarding each railroad's progress toward implementing a 
PTC system, based on railroads' self-reported data from their Quarterly 
PTC Progress Reports for Quarter 1 of 2018. In addition to FRA's 
standard status update, FRA added a new column to one of its PTC 
infographics that specifically depicts each railroad's progress toward 
achieving interoperability with each tenant railroad that operates on a 
main line where a PTC system must be implemented, except any tenant 
railroad that is subject to an exception under 49 CFR Sec. 236.1006(b) 
or 49 U.S.C. Sec.  20157(k).
    In addition, on May 10, 2018, FRA published a notice in the Federal 
Register to inform railroads and interested parties that FRA is 
proposing to revise the Quarterly PTC Progress Report Form (FRA F 
6180.165) and Annual PTC Progress Report Form (FRA F 6180.166) to help 
ensure that host railroads and tenant railroads are in fact 
coordinating interoperability testing. Specifically, FRA proposes 
adding to the existing table a column in which a host railroad would 
identify the scheduled completion date for interoperability testing 
with each of its required tenant railroads. This additional information 
and the rest of Section 6 will help FRA and the public better 
understand the progress a host railroad and each of its required tenant 
railroads are jointly making toward testing and achieving PTC system 
interoperability. See 83 Fed. Reg. 21815, 21817 (May 10, 2018).
    Also, FRA will host three PTC symposia this summer. Each of the 
sessions will bring together FRA's PTC experts and all 41 railroads 
subject to the statutory PTC mandate to discuss the requirements for 
the December 31, 2018, statutory deadline and answer industry 
questions. One symposium will focus specifically on best practices for 
PTC system field testing and interoperability testing. Together the 
symposia will cover lessons learned and best practices for the elements 
necessary for railroads to achieve full PTC system implementation under 
the statutory mandate.
    Question. You mention in your testimony that you believe that 12 
railroads remain at risk of missing the PTC deadline in December. How 
are you collaborating with them to hasten their work, and ensure that 
they can meet the deadline?
    Answer. Based on FRA's review of self-reported data that railroads 
provided in their Quarterly PTC Progress Reports for Quarter 1 of 2018, 
FRA currently considers twelve railroads at risk of not being able to 
meet the statutory criteria necessary to qualify for an alternative 
schedule. As self-reported in their Quarter 1 of 2018 Reports, FRA 
considers any railroad that had installed less than 85 percent of its 
PTC system hardware as of March 31, 2018, to be at risk, as hardware 
installation is only an initial phase of implementing a PTC system, and 
it is only one of the statutory criteria required to qualify for an 
alternative schedule.
    For railroads FRA deemed ``at risk,'' FRA sent each individual 
railroad letters in April and June of 2018 informing them of FRA's 
concerns and notifying them that, at this pace, they might not make 
sufficient progress to meet the statutory criteria to qualify for an 
alternative schedule. FRA also sent letters to the governors and state 
transportation Secretary of each state wherein any at-risk commuter 
railroads operate and emphasized the importance of the state government 
ensuring these railroads have proper technical support and sufficient 
oversight of PTC system implementation.
    From May 30 to June 1, 2018, FRA met again with each of the twelve 
at-risk railroads to review the steps each railroad is taking to ensure 
it complies with the statutory mandate, to discuss its implementation 
progress during recent months, and to offer these railroads as much 
technical assistance as possible during this critical time. FRA will 
continue to work and meet with the at-risk railroads regularly to 
ensure they meet the 2018 deadline or, at a minimum, meet the statutory 
criteria required to qualify for an alternative schedule.
    In addition, FRA has invited all 41 railroads subject to the 
statutory mandate to three symposia this summer as part of FRA's 
continuing efforts to provide technical assistance and guidance to the 
railroad industry on the implementation of PTC systems. These symposia 
will provide FRA the opportunity to clarify requirements, facilitate 
discussion on best practices and lessons learned, and answer any 
questions regarding the implementation of PTC systems in advance of the 
end-of-year deadline.
    The symposia will be held at the U.S. Department of Transportation. 
The dates and topics are:

  --June 15: PTC Statutory Requirements for 2018

  --July 16: PTC Testing and Interoperability--Guidance and Best 
        Practices

  --August 20: PTC Safety Plan Best Practices

    Question. Do you believe they will ultimately need an extension?
    Answer. Each railroad subject to the statutory PTC implementation 
mandate must complete full implementation of a PTC system on all 
required route miles by December 31, 2018, unless the railroad submits, 
and FRA approves, an ``alternative schedule and sequence'' with a 
deadline that is as soon as practicable, but no later than December 31, 
2020.
    Full implementation of a PTC system means that an FRA-certified and 
interoperable PTC system--including all hardware, software, and other 
components--has been fully installed, has been sufficiently tested, and 
is in operation on all route miles required to have operations governed 
by a PTC system under the statutory mandate. Based on FRA's review of 
the Annual PTC Progress Reports and Quarterly PTC Progress Reports 
railroads have submitted to date, it is likely that most railroads 
subject to the statutory mandate, including the twelve at-risk 
railroads, will need to request and obtain FRA's approval of an 
alternative schedule with a deadline beyond December 31, 2018, in order 
to continue testing, obtaining PTC System Certification, achieving 
interoperability, and fully implementing PTC systems.
                                 ______
                                 
               Question Submitted by Senator Patty Murray
    Question. Switching gears to the safe transport of crude-by-rail, 
which has been a focus of this Subcommittee since the Lac-Megantic 
crude oil accident in July 2013. Nearly 3 years later, we in the 
Northwest had our own crude oil accident when 16 tank cars in a 96-car 
unit train derailed near Moiser, Oregon along the Columbia River.
    I continue to hear from constituents concerned with oil trains 
running through their towns. While I appreciate DOT's attention to this 
issue, a critical rulemaking on comprehensive oil spill response is 
years overdue. Today, we have robust requirements for oil spill 
response plans for pipelines and ships. We need them for railroads, 
too.
    Administrator Batory, while not fully within your jurisdiction I 
must register my deep disappointment with the continual delays on the 
comprehensive oil spill response plan rulemaking. I ask you to do 
whatever FRA can to work with and assist PHMSA in completing this 
rulemaking to better protect our communities and the environment.
    Answer. FRA is committed to working with and assisting PHMSA to 
address concerns with moving crude oil by rail.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
    Question. Administrator Batory, I sent you a letter last week 
urging the FRA to take a more active role in improving Amtrak on-time 
performance in Illinois and around the country. What is the FRA doing 
NOW to improve Amtrak on-time performance?
    Answer. Outside the Northeast Corridor, Amtrak trains largely 
operate on tracks owned and dispatched by freight railroads. According 
to AAR, US freight railroads saw a 3.4 percent increase in total 
traffic in 2017, increasing freight train interference--the most common 
source of delays for Amtrak trains--on many Amtrak corridors.
    Regarding the Chicago-Carbondale, IL, route, Canadian National 
Railway (CN) has placed speed restrictions, minimum axle requirements 
and mandatory braking requirements on Amtrak's Illini/Saluki trains 
along this corridor as CN and Amtrak have identified some grade 
crossing activation issues. These requirements have increased the 
overall trip time, causing Amtrak trains to miss their schedule. CN and 
Amtrak are working together to identify an explanation for these 
activation issues, and FRA has encouraged the parties to work 
aggressively toward determining the cause and ensuring a safe railroad.
    This year, the Trump Administration nominated a new board chairman 
and two new board members to the Surface Transportation Board, an 
agency that can investigate intercity passenger train performance.
    Question. Administrator Batory, I've also pushed the STB to take a 
more active role on this issue, but their actions have been stopped by 
the courts. Given your long experience in the rail industry, what does 
Congress need to do to ensure better enforcement of the decades-old 
statutory requirement for freight trains to prioritize passenger 
trains?
    Answer. It is important that there is continued stakeholder 
dialogue to address these longstanding shared use issues. Recognizing 
this, in the FAST Act Congress directed FRA to evaluate the shared-use 
of right-of-way by passenger and freight rail systems, including the 
operational, institutional, and legal structures that best support 
improvements to the U.S. rail network. Additionally, FRA is also 
conducting an assessment of the data needed to better support the 
development of an efficient and effective intercity passenger rail 
network. FRA is working to complete these two studies by December 2018.
    As Amtrak's grantor, FRA has a financial stake in Amtrak's OTP, as 
poor OTP makes the service less marketable while increasing the 
operating costs. A 2008 DOT OIG Study concluded 85 percent OTP would:

  --Increase Operating Revenues--$120-150 million*

  --Reduce Operating Costs--$40-60 million*

  --Increase Performance Payments--$15-20 million*

  --Reduce Amtrak's Operating Loss--$140-195 million*

    *Inflation adjusted for 2018

    Question. The FRA recently noticed a request for information on the 
benefits, costs, and risk of automation in the railroad industry. 
Automated technology like positive train control can greatly improve 
safety, but I'm concerned that the safety benefits will be short lived 
if the industry uses automation to reduce crew sizes. Administrator 
Batory, does the number of crew members on a train impact its safety?
    Answer. As is the case with other modes of transportation, 
automated technology is expected to introduce new levels of risk 
mitigation and overall safety. FRA believes that adherence to Federal 
regulations and safe work practices while incorporating innovative 
technology is essential, but it is not necessarily determined by crew 
size.
    Question. Given the recent trend toward automation in 
transportation, should Congress consider regulating crew size in order 
to protect the safety of the traveling public?
    Answer. FRA does not believe it is necessary for Congress to 
regulate crew size in order to protect the safety of the traveling 
public. FRA is currently working with representatives of the rail 
industry as it incorporates advanced technology as part of appropriate 
Federal oversight, including ensuring sufficient crew resources to 
maintain the safety of the traveling public. Moreover, passenger 
railroads must staff their trains consistent with their 
responsibilities under FRA's existing passenger train emergency 
preparedness plan requirements in 49 CFR part 239.
    Question. Administrator Batory, are the transportation components 
of the rebuilding of Chicago Union Station eligible for the 
appropriated rail programs under the fiscal year 2018 omnibus bill?
    Answer. Yes, as an intercity passenger rail station owned by 
Amtrak, Chicago Union Station transportation improvements are eligible 
for Consolidated Rail Infrastructure and Safety Improvement Grants and 
Federal-State Partnership for State of Good Repair Grants. In fiscal 
year 2018, these grant programs were funded at $592.5 million and $250 
million, respectively. Additionally, Amtrak can utilize its National 
Network funds to support rail infrastructure projects at Chicago Union 
Station.
    Also as a significant tenant at Chicago Union Station, nearly 
130,000 Metra passengers passing through the station on an average 
weekday and more than 42,000 each weekend, Metra could also pursue 
Federal investment in Chicago Union Station through Department of 
Transportation grant programs. The Secretary is currently accepting 
applications for the Better Utilizing Investments to Leverage 
Development (BUILD) program for surface transportation infrastructure, 
and applications are due on July 19, 2018. Additionally, Metra could 
pursue funds from the Federal Transit Administration's Capital 
Investment Grant program. In fiscal year 2017, these grant programs 
were funded at $1.5 billion and $2.6 billion, respectively.
                                 ______
                                 
                 Questions Submitted to Stephen Gardner
               Questions Submitted by Senator John Hoeven
    Question. Over the past few months, a number of my constituents, 
along with Amtrak's stakeholders, have raised concerns about the 
direction the railroad is taking with regards to its long-distance 
trains, including the Empire Builder that runs through North Dakota.
    The Empire Builder has seven stops in North Dakota, and serves as a 
vital transportation for our state's residents. Amtrak is particularly 
important to those travelling to and from Minot, Grand Forks, and 
Williston.
    What changes will be made to Amtrak's most recent five-year service 
plan with regards to the National Network and long-distance trains in 
particular? What service changes could or should North Dakotans expect 
to the Empire Builder service?
    Answer. Amtrak is required by the FAST Act to submit five-year 
plans annually to Congress. Each year, the plan includes an additional 
year of financial planning into the future. The next version of this 
plan will be for fiscal year 2020-fiscal year 2024 and will be 
considered by our Board in January of 2019 and submitted to Congress 
thereafter. Management does not plan on proposing any substantial 
changes to the Empire Builder route or the current intercity passenger 
rail service levels to North Dakotans, or other major changes to the 
Long Distance services of the National Network as part of that plan at 
this time. We anticipate that any proposals for changes to our network, 
service levels, and intercity passenger rail policy will be made by 
Amtrak through the reauthorization process we expect to begin next year 
and considered then by Congress and Administration. The one exception 
to this relates to the future of the Southwest Chief route due to the 
unique situation that applies to segments of this particular route.
    Question. In testimony before the House Transportation and 
Infrastructure Committee in February, your CEO Richard Anderson 
testified that if any of the host railroad segments over which it 
operates, ``appear unlikely to achieve sufficient progress to apply for 
an alternate positive train control (PTC) (implementation) schedule'' 
by the end of 2018, ``Amtrak will suspend operations until such time as 
the carriers become compliant with the law.''
    As there are a number of sections of track on which PTC is excluded 
(including, for example, a section of the Empire Builder's route 
outside St. Cloud, MN), will Amtrak stop running the Empire Builder on 
January 1st, 2019, per Mr. Anderson's stated commitments to cease 
operations on tracks where PTC is not up and running?
    Answer. Amtrak plans to conduct risk assessments on MTEA (main line 
track exclusion addendum) territory such as the portion of the route on 
the Empire Builder that you reference. These assessments are being done 
to analyze the risks associated with continued operations over the 
route in absence of PTC and to help us create strategies for risk 
mitigation that we expect will permit continued operations across our 
network at a common level of safety until PTC or PTC-equivalency can be 
achieved. The target for completing risk assessments is by the end of 
October.
    Question. Finally, I will be introducing legislation with Senator 
Duckworth that would make it a Federal offense for anyone aboard a 
passenger train to assault, intimidate, or interfere with the duties or 
performance of a crewmember.
    It is my understanding that you are supportive of this legislation, 
are you willing to work with myself and Senator Duckworth to get this 
bill passed?
    Answer. Amtrak supports the legislation related to assaults on 
train crews that you introduced with Senator Duckworth and appreciate 
your efforts to address this critical issue. We appreciate the progress 
so far and will continue to work with your office and Senator Duckworth 
as it moves through the legislative process.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
    Question. The Cascades accident occurred on a curve where the 
maximum speed limit is 30 miles per hour and the maximum speed prior to 
the curve is 79 miles per hour. The FAST Act required railroads to 
develop speed limit action plans for just this type of curve. I 
understand Amtrak established a plan that requires mandatory 
communication between the engineer and conductor when approaching speed 
restrictions.
    Mr. Gardner, how effective has this communication been in practice 
on a day to day basis? Has Amtrak reviewed its speed limit action plan 
since the Cascades accident?
    Answer. This communication is effective and it is monitored by our 
front line supervisors. We have reviewed the speed limit action plan. 
However, it is important to note that train crew communications and the 
speed limit action plans are supplemental tools. As an industry we must 
focus our attention and resources on timely PTC implementation.
    Question. I understand PTC will be fully implemented on all tracks 
Amtrak runs on in Washington, including on the Point Defiance Bypass 
where the Cascades accident occurred, by the December 2018 deadline.
    Mr. Gardner, is that correct? Yes or No. If no, what steps is 
Amtrak taking now in order to meet this critical deadline?
    Answer. Yes, PTC will be fully implemented on the all tracks that 
Amtrak runs in the State of Washington by the deadline.
    Question. PTC is vital, and long overdue, but it doesn't address 
all rail safety issues and cannot prevent all accidents--mainly vehicle 
or pedestrian intrusions on at-grade crossings and trespassing on 
railroad property.
    Mr. Gardner, can you share what Amtrak is doing to work with 
communities through which your passenger trains run? Please outline how 
you support physical solutions like at-grade crossings, technology 
solutions, education, communication, and any other mechanisms to 
improve safety and reduce the risk of vehicle or pedestrian accidents?
    Answer. We continue to look for opportunities to address grade 
crossing safety and we have long supported outreach programs. The most 
prominent program is ``Operation Lifesaver,'' a nonprofit public safety 
education and awareness organization dedicated to reducing collisions, 
fatalities and injuries at highway-rail crossings and trespassing on or 
near railroad tracks. However, more needs to be done and we still 
believe the safest grade crossing is the one that does not exist. 
Several of the host railroads have programs in place that financially 
incentivize communities to remove public grade crossings and we 
strongly believe that more funding and focus on upgrading those grade 
crossings that necessary with enhanced traffic control and safety 
features is justified. Similarly, where new public grade crossings are 
introduced it is imperative that active warning devices are installed.
    Question. Similarly, Amtrak must do more to improve its safety 
culture. I appreciate your work to implement a Safety Management System 
and the adoption of new safety policies.
    Mr. Gardner, this all sounds good. But how will you institute these 
changes? Do you have an action plan with hard deadlines? What about 
mechanisms to determine the effectiveness of these new safety systems?
    Answer. A Safety Management System (SMS) is never complete, it is 
an exercise in continuous improvement. We do have an action plan with 
incremental milestones that have been appropriately prioritized. In 
addition, Amtrak Board of Directors passed a resolution which required 
Amtrak to be the industry leader in the implementation of a SMS. The 
key components of our safety policy are:

  --Our goal is to become America's safest passenger railroad. We 
        believe that zero accidents and zero serious injuries is 
        possible--and we will work together towards everyone performing 
        at this level.

  --All business functions are expected to make safety an integral 
        element to how they operate. This commitment is central to SMS. 
        Everything we do must consider and advance our safety 
        performance.

  --We will operate at the highest level of safety--by exceeding 
        regulatory standards. It is not good enough for us to simply 
        meet Federal Railroad Administration (FRA) guidelines. We must 
        do better.

  --We will proactively identify and mitigate risk based on data. We 
        are identifying new metrics that will allow us to focus on 
        leading indicators--instead of relying on historical incident 
        data.

  --We will become a learning organization where safety self-reporting 
        is encouraged. We will not discipline employees for self-
        reporting a safety issue. We need to know where we are falling 
        short in safety so we can study these incidents and learn from 
        them.

  --All employees are empowered to stop an operation if an unsafe 
        condition exists. This means everyone--at any time.

  --We must not tolerate an intentional disregard for safety or 
        reckless behavior. These incidents will be handled 
        appropriately.

    Similarly, risk management is a key component of a successful SMS. 
Measuring safety performance is not new to Amtrak. The effectiveness of 
the SMS will be monitored by safety metrics that are currently being 
refined. We have refocused our suite of safety metrics around customer 
injury, employee injury, train safety index, and trespasser/grade 
crossing incidents. Many of these metrics move away from the focus on 
discipline for violations and instead move toward a culture of safety, 
learning, and proactive continuous improvement.
    In 2019, our strategy will be to mature these metrics and the 
business processes around them to increase visibility and focus on 
corrective actions. We have established internal goals around these 
metrics and they are cascaded throughout the enterprise. Meeting these 
goals is one component of measuring our progress as related to safety 
of operations.
    Question. The City of Lakewood has expressed interest in locating a 
new Amtrak station in Lakewood. I understand this would complement a 
new commuter rail station in the Tillicum neighborhood, and also serve 
Joint Basin Lewis McChord.
    Mr. Gardner, I ask that Amtrak consider conducting a Station 
Assessment Study to determine the feasibility of locating a new station 
in the City of Lakewood.
    Answer. The Amtrak Cascades passenger rail program is a state-
supported service of the States of Washington and Oregon, and is 
operated by Amtrak. Since this is a state-supported service, such 
requests typically are joint decisions by the various parties that 
support the service, which includes Amtrak, and the States of 
Washington and Oregon, since together, we set the overall vision for 
the service. For new station stops along this route, the State of 
Washington has developed, and implemented, a Station Stop Policy that 
outlines a clear process for communities seeking an Amtrak Cascades 
stop in their city. Guidance on conducting a preliminary evaluation, 
feasibility study, and submitting information for consideration is 
outlined in a manual on the WSDOT website.
    Question. In March, Amtrak announced it would no longer operate 
charter services or special trains with narrow exceptions and that one-
time trips and charters would be immediately discontinued. Amtrak also 
reduced the number of stations where private cars could be added or 
removed from regular Amtrak trains. The later policy change will 
negatively impact a private car in Spokane, Washington. I have heard 
from constituents with concerns that these new policies could hurt 
communities by reducing economic development and tourism opportunities.
    Mr. Gardner, during an April 11 hearing before the House THUD 
Subcommittee--our counterparts--you said Amtrak plans to constrict the 
number of charter train routes, not eliminate them entirely. But this 
is not what the Amtrak memo states. Can you clarify how exactly 
Amtrak's policy on charter services and special trains is changing?
    Will there be a waiver process for operators of charter services or 
special trains to apply for the continuation of their service or 
special event?
    In announcing this change Amtrak said it was in an effort to 
``operate its core train service safely, punctually, and efficiently.'' 
Please explain how the operation of charter services or special trains 
impacts Amtrak's service, and provide any data on financial and 
schedule impacts that Amtrak used to justify this decision.
    Answer. Amtrak's primary objective is to operate its core train 
service safely, punctually, and efficiently. Amtrak must stay focused 
on this objective, particularly given the significant on-time 
performance challenges we currently face owing to host railroad-related 
delays. We reevaluated our charter and private car services because of 
the impact they were having on our operational capacity and their cost 
to our company. Some instances had an effect across the system. For 
example, Amtrak routed 12 Amtrak single level cars to a charter in 
Seattle this past December which had a detrimental impact to our 
operations. It caused undue stress to equipment availability during 
service disruptions in Chicago and pushed our preventative maintenance 
schedule behind across the country. Those charter trains and private 
cars will continue which do not disrupt regularly scheduled service and 
are economically viable with sufficient financial benefit for Amtrak to 
justify the resources and the assets. Our policies for both services 
are posted publically on our website here:

    https://www.amtrak.com/content/dam/projects/dotcom/english/public/
documents/Amtrak-Charter-Train-Guidelines-032818.pdf

    https://www.amtrak.com/content/dam/projects/dotcom/english/public/
documents/Amtrak-Private-Car-Guidelines-062118.pdf

    Question. Unfortunately, these changes aren't the only ones I'm 
hearing about. I understand that Amtrak also recently eliminated the 
food and beverage service on the Capitol Limited and Lake Shore Limited 
routes. This will have a direct impact on service and jobs. While these 
routes are not in Washington State, I am concerned with what this 
decision may be foreshadowing for Amtrak's Long Distance service. 
Amtrak's Long Distance service connects towns and cities all across 
America, sometimes serving as the only transportation option, and 
supports local economies.
    a. Mr. Gardner, does Amtrak intend to maintain at least the current 
level of service on all Long Distance routes?
    Answer. Yes, Amtrak plans to continue the current Long Distance 
routes and frequencies we operated in fiscal year 2018 in fiscal year 
2019, with the possible exception of a portion of the Southwest Chief 
route, for which we have proposed instituting alternative connecting 
bus service in lieu of significant ongoing additional costs associated 
with continuing service over this segment. Congress is currently 
considering this issues in the fiscal year 2019 THUD Appropriations 
bill.
    Question. Can you outline Amtrak's long-term plans, at least the 
next 5 years, for Long Distance service?
    Answer. Amtrak will submit its next iteration of its long distance 
five year plans in February 2019, consistent with its statutory 
requirement to do so. At present, we anticipated that any Amtrak 
proposals for major changes to the national network or intercity 
passenger rail policy will be provided to Congress as part of the 
reauthorization of the FAST Act.
    Question. Are there plans to reduce or eliminate food and beverage 
service on other routes? What about onboard or clerk services?
    Answer. Amtrak is always interested in improving our customer 
experience and becoming more efficient throughout our system. Relative 
to our food and beverage offerings, Congress explicitly required us to 
vastly improve the financial performance of these amenities by 
eliminating all associated losses by December 2020 with the clear 
knowledge that achieving such a mandate would require us to 
significantly change our model and experiment with new approaches to 
serving the needs of our customers during their journey.
    In regards to our new approach to food service on the Capitol 
Limited and the Lake Shore Limited, the main focus is not just food and 
beverage, although that is certainly a critical element. We are moving 
to a general hospitality environment that is modernized and efficient. 
We want to put emphasis on what the new generation of traveler expects 
from an experience. That does not mean the elimination of communal 
dining, but does mean more choice and individualized approach.
    We want the customer to have a greater say on where, when and how 
they dine, whether that is communally, in their sleeper, alone with 
their media devices or a combination of all of the above during their 
journey. We are testing less structure--more individualization. We are 
increasing the quality of the food, but reducing the amount of 
preparation necessary which provides us with the savings needed to 
invest in the product. In the coming year, we plan to move toward pre-
order opportunities where a customer can select what they wish, while 
booking their trip, or wait and decide when they board. We will still 
have seating in a communal cafe-type car. Longer terms plans may 
consider some minor remodeling to provide various seating options for 
people with various interests.
    We continue to refine the product and service on the Capitol 
Limited and Lake Shore Limited and will be looking to expand the use of 
this model on other single-night overnight Long Distance trains in 
fiscal year 2019, as appropriate.
    Question. I understand all Amtrak employees are trained to act as 
on site emergency responders. Did Amtrak consider impacts to Amtrak's 
ability to effectively respond to emergency situations when making the 
changes to the Capitol Limited and Lake Shore Limited routes? Did you 
factor this reduction in staff into Amtrak's safety plans?
    Answer. Amtrak takes very seriously appropriate safety 
considerations in our determination of crew size. We currently provide 
on-board service (OBS) personnel with first aid and CPR training during 
their initial training. After initial training every other year OBS 
personnel continue to receive emergency preparedness training covering 
rail equipment familiarization; situational awareness; passenger 
evacuation; coordination of functions; and ``hands-on'' instruction 
concerning the location, function, and operation of on-board emergency 
equipment. Appropriate staffing levels have always been included in our 
safety protocols. Since conductors and engineers have primary 
responsibility for emergency response on a train, we do not believe 
that changes in general OBS personnel levels impacts our ability to 
sufficiently respond to an incident.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
    Question. Amtrak's Chicago-Carbondale route continues to be one of 
the worst performing routes in the country due to freight interference. 
Last year, the route was only on time 32 percent of the time because 
Canadian National Railway continues to give preference to its freight 
trains over Amtrak trains despite the decades-old statutory requirement 
to prioritize passenger trains. Nationally, Amtrak's long distance 
trains were on time at stations only 45 percent of the time in 2017, a 
decline of 8 percent compared to 2016.
    a. Mr. Gardner, can you give us a better idea of how poor on-time 
performance affects Amtrak's bottom line and what Amtrak views as the 
primary cause of it?
    Answer. Poor on-time performance (OTP) is primarily due to host 
responsible delays. When operating on host railroads, those hosts make 
all dispatching decisions regarding which trains may proceed and which 
trains will be held. The largest cause of delay to Amtrak trains on 
host railroads is Freight Train Interference (FTI). Although Federal 
law requires Amtrak passenger trains to receive preference over freight 
transportation, host railroad dispatchers often require Amtrak 
passenger trains to wait so that its freight trains can operate first. 
Sometimes a host railroad will make Amtrak passengers follow the same 
slow freight train for 50 to 100 miles or more, and may even make 
Amtrak passengers wait while individual freight cars are switched into 
or out of industrial facilities. Decisions by freight companies to 
prioritize their trains over passengers often occur when freight trains 
are operating late or short on crews.
    Disciplined freight operators, such as BNSF and Canadian Pacific 
(CP) run reliable schedules that benefit both Amtrak and freight 
customers with significantly less FTI to passenger trains. Over the 
last twelve months, BNSF averaged 300 minutes of FTI per ten thousand 
train miles, and CP averaged 100 minutes of FTI per ten thousand train 
miles. BNSF and CP work cooperatively with Amtrak, respecting Federal 
law and actively engaging Amtrak personnel when operational challenges 
arise. Other freight companies, such as Norfolk Southern (NS) and 
Canadian National (CN), often operate freight trains many hours ahead 
of or behind schedule, or with no schedule at all. Over the last twelve 
months, CN averaged 750 minutes of FTI per ten thousand train miles, 
and NS averaged 1000 minutes of FTI per ten thousand train miles. These 
railroads regularly ignore Amtrak's statutory preference and they make 
unilateral operating decisions which consistently delay Amtrak 
passengers.
    In addition to lost revenue through lost ridership, delays increase 
Amtrak costs, primarily by extending shifts, increasing staffing and 
maintenance requirements, and utilizing more fuel. In 2008, the United 
States Department of Transportation's Office of Inspector General 
(USDOT OIG) issued a report on the financial effects of poor OTP and 
concluded that ``poor OTP has significant negative impacts on Amtrak's 
financial condition and may undermine Amtrak's ability to retain and 
grow ridership.'' Using fiscal year 06 performance numbers as a 
baseline, which are unfortunately similar to Amtrak's current long-
distance OTP, the USDOT OIG found that increasing OTP to 75 percent 
would increase revenues by nearly $70 million and reduce costs by $32 
million on Amtrak's long-distance network. Amtrak's 2015 study of the 
impact of OTP on Amtrak's operating costs demonstrated a clear 
statistical relationship between OTP and each of Amtrak's costs areas 
(maintenance, fuel, crews, etc.) with cost changes associated with 
every 1 percent change in performance.
    OTP improvements are achievable. Amtrak's performance on host 
railroads improved dramatically off the USDOT OIG fiscal year 06 
baseline performance after the Passenger Rail Investment and 
Improvement Act of 2008 (PRIIA) was enacted. PRIIA provided broad 
preference enforcement authority to the Surface Transportation Board. 
That authority alone precipitated a nearly 67 percent drop in FTI in 
just 8 months. Unfortunately, legal challenges thwarted Amtrak's 
ability to enforce its statutory right of preference. Following the 
initial judicial decision in 2013, host performance began to fall. FTI 
delays were 50 percent higher in fiscal year 17 than in fiscal year 13, 
and Amtrak's OTP dropped dramatically. With a strong preference 
enforcement tool, such as Amtrak's fiscal year 19 legislative proposal 
for a private right of action, Amtrak could reverse the financial 
impacts of poor OTP performance on host railroads, improving its bottom 
line by both reducing costs and increasing ridership and revenue.
    Question. Amtrak's long distance routes typically serve communities 
with very little other transportation options. Currently eight of 
Amtrak's 15 long distance trains run through Illinois.
    a. Mr. Gardner, does Amtrak have any current or future plans to 
shorten or eliminate any of its long distance routes? What are Amtrak's 
long term plans in the next 5-10 years for long distance routes? Is 
Amtrak committed to the further development of these long distance 
routes as they typically service communities that have no other, or 
very little, transportation options?
    Answer. Any discussion of major change or redevelopment of long-
distance routes will be included and presented as part of Amtrak's 
reauthorization discussion with Congress.
    The one exception is that Amtrak is currently confronted with the 
unique situation of the Southwest Chief and must make decisions on the 
route's future now. Amtrak is considering the available options for the 
Southwest Chief route given the unique maintenance and safety concerns 
on the Hutchinson, KS-Albuquerque, NM segment of that route. Amtrak 
raised the need for a long term financial plan in October 2017 and 
continues to work with stakeholders on a path forward.
    This does not imply Amtrak is initiating any other changes to the 
National Network in fiscal year 2019. However, we are always interested 
in planning and developing better, faster and more efficient options 
for Amtrak to provide the best possible service to our customers and 
your constituents. We want to make sure that we're using our assets and 
the American taxpayers' investment, to serve as many people as 
possible.
    Question. Mr. Gardner, what are the rental fees, and other fees, 
that Amtrak charges for commuter railroads around the country? How does 
this compare to the fees for Chicago Union Station?
    Answer. Amtrak provides passenger rail services, including 
engineers, train crews, maintenance of equipment services, and other 
operational support to transit and commuter rail agencies around the 
country. Amtrak operates commuter rail services on behalf of three 
regional rail authorities--the MARC Penn Line Service in Maryland, 
Shore Line East in Connecticut, and Metrolink in the Los Angeles 
region. Amtrak also provides access to its owned infrastructure to the 
following transit agencies: Massachusetts Bay Transportation Authority 
(MBTA), Connecticut Department of Transportation (Shoreline East and 
CTRail commuter operations), Long Island Rail Road, New Jersey Transit, 
Southeastern Pennsylvania Transit Authority (SEPTA), Maryland Transit 
Administration (MARC), Virginia Railway Express (VRE), and Regional 
Transportation Authority (RTA), owner of the Metra commuter railroad 
operating in Chicago.
    Access agreements may include access fees that compensate Amtrak 
for the use of Amtrak property and capacity, the proper allocation of 
reimbursable expenses for shared infrastructure and operational costs 
including station operations and maintenance, dispatching, right-of-way 
maintenance, electric propulsion (NJT, SEPTA, MARC), police and a 
contribution to fund capital investment needs. The access amounts paid 
to Amtrak for usage of Northeast Corridor (NEC) facilities and capital 
contributions for normalized replacement of existing NEC infrastructure 
are governed by the Passenger Rail Investment and Improvement Act of 
2008 (PRIIA) Section 212. Annual PRIIA 212 reimbursements for the 
applicable agencies on the NEC are calculated in accordance with the 
provisions of the Northeast Corridor Commuter and Intercity Rail Cost 
Allocation Policy.
    Metra access to and use of Chicago Union Station (CUS) is governed 
by an Agreement between Chicago Union Station Company, a former wholly-
owned subsidiary of Amtrak, and the Northeast Illinois Regional 
Commuter Railroad Corporation, which was signed in 1984 and expires in 
2019, and includes operational cost reimbursement last recalculated 
thirty years ago. Metra also periodically agrees to fund specific 
capital investments; this amount varies annually. Metra's current 
compensation to Amtrak for the use of Union Station and the associated 
terminal infrastructure is far below the compensation received by 
Amtrak from other commuter users of our assets, and is inadequate to 
allow for proper reinvestment in station and railroad assets.
    Question. Mr. Gardner, is Amtrak under any statutory restriction to 
take funds made from Union Station private development in Chicago and 
put them into other corridors outside of Illinois? Could they legally 
put those funds into the New York City Amtrak service? Is the situation 
different for stations they own in the Northeast Corridor? Does Amtrak 
intend to use proceeds from the private development to improve the 
transportation components of Chicago Union Station, or of Illinois 
service? How does the accounting of these funds work, under the new 
accounts required from the FAST Act?
    Answer. Under the FAST Act, Amtrak receives funding through two new 
accounts under its grant agreement from FRA. These two accounts cover 
our two major networks, the Northeast Corridor and the National 
Network, and contain the entirety of Amtrak's Federal appropriation and 
the various revenues associated with the activities that occur in each 
of these networks. The funds within these network accounts can only be 
used for costs and investments associated with those respective 
networks, meaning that revenues associated with Union Station can only 
be used to pay for costs or investments made in the National Network. 
Congress did include a provision that would permit Amtrak to transfer 
funds between the accounts, but this would require notification of FRA 
and Congress. Collectively, these measures keep the investments by 
Congress in the accounts where they are allocated. To date, Amtrak has 
never transferred funds between these two accounts.
    Question. Mr. Gardner, according to Amtrak's fiscal year 19 Grant 
Request, Amtrak's revenue and ridership has steadily increased the last 
couple of fiscal years. Given these tremendous gains, the large Federal 
investment seen in fiscal year 18, and Amtrak's current request for 
increased Federal investment into its infrastructure system, does 
Amtrak intend on maintaining current service levels on all routes 
(National Network or Northeast Corridor)?
    Answer. Amtrak has worked hard and is encouraged by our exponential 
increase in ridership and revenue and our exponential decrease in debt 
over the last decade. We believe in making sure every dollar invested 
in Amtrak by Congress goes to provide the best possible service we can 
provide to our customers. However, these gains do not fully address the 
critical need for infrastructure or equipment investment by Congress. 
At this time, Amtrak does not generate enough revenue to meet the 
significant operating or capital needs in our nationwide system. Many 
of our fleet, bridges, tunnels and other critical infrastructure and 
equipment are in need of replacement in the near future. We have begun 
planning now and hope that Congress will be able to help invest in the 
coming years to help us realize the next generation of intercity 
passenger rail.
    Question. Mr. Gardner, does Amtrak expect to reduce or eliminate 
onboard or clerk services? If so, what services and why? Would these 
changes be gradual or immediate? Would these positions be outsourced, 
and how many jobs would be lost? Does Amtrak have a plan in place to 
retain employees for other roles with Amtrak?
    Answer. It is Amtrak's duty under statute to ensure that we're 
spending every taxpayer dollar that we receive in the most efficient 
way possible. As such, we continually review our staffing levels and 
are always in search of opportunities to achieve good service more 
efficiently. As customer demand, travel patterns, and technology 
changes, we will continue to seek efficiencies that allow us to achieve 
more with the funds provided by the Federal Government and our other 
partners, as any good business would. In fiscal year 2018, we reduced 
ticket clerks at a number of low-volume stations where the minimal 
ticket transactions that occur each year suggested that doing so would 
not unduly impact our revenues and service levels. Doing so is 
anticipated to save roughly $100,000-$120,000 per station. We made 
these changes without laying off any employees and we will continue to 
monitor ridership, revenue and customer feedback to see if any 
adjustments are required. At each such station, we continue to employ 
either caretakers or station hosts that provide various functions at 
such facilities.
    Question. Mr. Gardner, all Amtrak employees are trained to act as 
on site emergency responders in emergency situations. How will the cuts 
in reservation or food and beverage staff impact Amtrak's ability to 
sufficiently respond after an incident? Has Amtrak factored this into 
their safety plans?
    Answer. Amtrak takes safety very seriously and safety is considered 
as we review crew and staffing needs for any of our services and 
facilities.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
    Question. I want to see Amtrak operate safe and secure trains on 
its routes across the country. I appreciate the focus you have placed 
on this issue and know that you recognize Congress also takes rail 
safety seriously, evidenced by the resources we provided for the 
corporation in the 2018 Omnibus Appropriations Act. Unfortunately, 
there have been a number of mixed statements coming from Amtrak 
leadership about its plans for continuing service along routes that 
will not be compliant with Positive Train Control (PTC) requirements, 
even on those with exemptions.
    Does Amtrak plan to suspend service on low-traffic routes that are 
otherwise exempt from PTC requirements?
    Answer. Amtrak does not intend to suspend service on such routes 
but final determination of our operations will be pursuant to the risk 
assessment and mitigation process now underway. We are currently 
conducting risk assessments on routes that contain FRA-granted MTEA's 
(main line track exclusion addendum) or do not plan to have operable 
PTC beginning January 1, 2019 as provided for by an FRA alternative 
schedule for implementation. These assessments are being done to 
analyze the risks associated with continued operations over the route 
in absence of PTC and to help us create strategies for risk mitigation 
that we expect will permit continued operations across our network at a 
common level of safety until PTC or PTC-equivalency can be achieved. 
The target for completing risk assessments is by the end of October.
    Question. The Vermonter is an example of a state supported service 
that Amtrak operates on routes that have waivers from positive train 
control requirements.
    Can you share with the Committee Amtrak's plans for operations of 
the Vermonter after the end of this calendar year?
    Answer. Amtrak continues to conduct risk assessments to determine 
the necessary mitigations and enhancements for routes that have MTEAs. 
It is our expectation at this time that we will develop mitigations 
that will allow us to continue running service on the Vermonter and 
Ethan Allen after the end of the calendar year until PTC or PTC-
equivalency can be achieved on these routes.
    Question. Rail advocates in Vermont have noted there is a 50 mile 
stretch of track on the Vermonter route owned by the state of 
Massachusetts and operated by Pan Am that does not currently have a PTC 
waiver from FRA.
    Will the status of this track impact operation of the Vermonter in 
2019?
    Answer.Amtrak's understanding, at this time, is that MassDOT 
intends to file for a mainline track exclusion addendum for this 
portion of the route. We will keep you updated on the progress.

                          SUBCOMMITTEE RECESS

    Senator Collins. This hearing is now adjourned.
    [Whereupon, at 5:05 p.m., Wednesday, May 16, the hearing 
was adjourned, and the subcommittee was recessed, to reconvene 
at a time subject to the call of the Chair.]
</pre></body></html>
